        REDACTED AND UNCLASSIFIED




      The Federal Bureau of
Investigation’s Efforts to Improve
 the Sharing of Intelligence and
        Other Information

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 04-10
            December 2003




       REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


       THE FEDERAL BUREAU OF INVESTIGATION’S
   EFFORTS TO IMPROVE THE SHARING OF INTELLIGENCE
               AND OTHER INFORMATION*

                               EXECUTIVE SUMMARY

       The Federal Bureau of Investigation (FBI) has established as its
highest priority the prevention of terrorist attacks on the United States. The
accomplishment of this critical national security mission requires the FBI to
collect, analyze, and appropriately disseminate intelligence and other
information needed to disrupt or defeat terrorist activities. However, in the
past, Congressional inquiries concerning the September 11, 2001, terrorist
attacks on the United States, reports of commissions examining terrorism
before and since September 11, and Office of the Inspector General (OIG)
reports have suggested various weaknesses in the FBI’s ability to effectively
carry out the vital intelligence component of its counterterrorism program.1

       As a result, the OIG initiated this audit to review the FBI’s progress in
addressing deficiencies in the FBI’s intelligence-sharing capabilities that the
FBI, Congress, the OIG, and others identified subsequent to the
September 11 terrorist attacks. Our audit focused specifically on the FBI’s:
1) identification of impediments to the sharing of counterterrorism-related
intelligence and other information; 2) improvement of its ability to share
intelligence and other information both within the FBI and to the intelligence
community and state and local law enforcement agencies; and
3) dissemination of useful threat and intelligence information to other
intelligence and law enforcement agencies. The focus of this audit was to
identify and evaluate corrective actions taken by the FBI to improve the

       1
          The commissions and their reports include: 1) the Bremer Commission’s (National
Commission on Terrorism) June 2000 report entitled “Countering the Changing Threat of Terrorism”;
2) the Gilmore Commission’s (Advisory Panel to Assess Domestic Response Capabilities for Terrorism
Involving Weapons of Mass Destruction) second and fourth reports in December 2000 and December
2002, respectively; and 3) the Thornburgh Panel’s (National Academy of Public Administration) June
2003 Congressional testimony on the FBI’s reorganization. The OIG reports include: “Review of the
Federal Bureau of Investigation’s Counterterrorism Program: Threat Assessment, Strategic Planning,
and Resource Management” (September 2002), and “An Investigation of the Federal Bureau of
Investigation’s Belated Production of Documents in the Oklahoma City Bombing Case” (March 2002).

*BECAUSE THIS REPORT CONTAINED INFORMATION CLASSIFIED AS “SECRET” OR “LAW ENFORCEMENT
SENSITIVE” BY THE FEDERAL BUREAU OF INVESTIGATION, WE REDACTED (WHITED OUT) THAT INFORMATION
FROM THE VERSION OF THE REPORT THAT IS BEING PUBLICLY RELEASED. WHERE SUCH INFORMATION WAS
REDACTED IS NOTED IN THE REPORT.




                                            -i-



                         REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

sharing of intelligence information. The audit does not directly assess the
viewpoints of the broader intelligence community or state and local law
enforcement agencies to avoid overlap with related work on governmentwide
information sharing recently conducted by the U.S. General Accounting
Office (GAO).

Introduction

       The terrorist attacks of September 11, 2001, revealed severe
deficiencies in the FBI’s intelligence analysis and information-sharing
capabilities and processes. During the OIG’s September 2002 audit of the
FBI’s counterterrorism program, some FBI managers described the FBI’s
intelligence analysis capability as “broken.” Others on terrorism-related
commissions and in Congress have suggested that the FBI’s intelligence
capability was more than broken; it had been virtually nonexistent.

      The FBI’s historic expertise has been in crime-fighting and in building
cases for prosecution of criminals. Refocusing the FBI to preventing terrorist
acts and developing the sets of skills required to collect, analyze, and
disseminate intelligence strategically as well as tactically has required a
change in the FBI’s culture that has not been easy or quick.

      FBI Director Robert Mueller took office one week before the September
2001 terrorist attacks and was immediately confronted with the need to
change the focus of the FBI, and address various management problems at
the FBI. He established as the FBI’s highest priority the prevention of
terrorist attacks and set about restructuring the Counterterrorism Division
(CTD) to improve analysis and to foster the internal sharing of information.
The Director also addressed the FBI’s lack of a full, professional intelligence
capability by bringing on board through temporary assignments seasoned
Central Intelligence Agency (CIA) managers and analysts to help address the
FBI’s deficiencies in intelligence analysis and dissemination. Recognizing
that the FBI’s information technology (IT) systems were severely antiquated,
the Director also hired professional IT managers from outside the FBI to
develop more modern computer systems.

Impediments

        The FBI has faced a number of impediments in its efforts to transform
itself into a law enforcement agency with a robust intelligence capability to
help prevent future terrorist attacks. An inherent part of this reinvention is

                                   - ii -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

the ability to securely share intelligence and other information. During the
course of our audit work, we asked FBI CTD managers about the problems
they have encountered in sharing intelligence and other information both
within the FBI and also to and from the intelligence community and state
and local law enforcement agencies. FBI counterterrorism managers
universally cited the FBI’s IT limitations – particularly the existing Automated
Case File (ACS) system – as the predominant impediment to the effective
dissemination of intelligence and other information. Not only is the ACS
system outmoded and a poor tool for disseminating information, but because
of security vulnerabilities ACS cannot be used to transmit Top Secret (TS) or
Sensitive Compartmented Information (SCI). Since much intelligence is TS
or SCI, ACS was restricted to Secret level information or below and could not
communicate with other agencies’ systems. The other major impediment
cited was the FBI’s problems with being able to pull information together
from a variety of sources, analyze the information, and disseminate it. In
other words, the FBI lacked the ability to “connect the dots” or create a
mosaic of information. Along with the FBI’s analytical weakness was the
lack of a capability to prepare a strategic threat assessment or “big picture”
intelligence estimate.

       In addition to IT and analytical impediments, FBI counterterrorism
managers outlined a number of day-to-day information-sharing problems.
For example, incoming cables or other information from the intelligence
community were not always disseminated, or not disseminated timely, to the
individuals or units that needed to act on the information. Such misdirected
information could occur if the addressee had transferred jobs or the specific
and correct unit was not designated. Internal communications through
Electronic Communications (EC) were a problem because ECs required layers
of review and approval as they made their way through the organization. In
addition, although state and local law enforcement have publicly complained
that the FBI was not sharing information, some state and local officials
would not apply for the security clearances required for access to the
information. Further, if the FBI was not the originator of the information,
the intelligence agency providing the information needed to approve
dissemination beyond the FBI. Passing information beyond the originating
office also required the “scrubbing” of more sensitive aspects, such as the
sources and methods used to acquire the information, to avoid potential
compromise.

      FBI managers stated that to accompany the organizational changes
and the focus on improving information-sharing processes, the FBI has not


                                   - iii -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

yet established policies and procedures that delineate the appropriate
processes to be used to share information and intelligence, either internally
or externally. For example, when we requested a flow chart for the
processing of intelligence or other information received by FBI headquarters,
none was available, and the FBI instead prepared a narrative description to
meet our request. Further, the FBI has no formal policy or directive on what
information should be disseminated to state and local law enforcement and
under what circumstances. Without formal policies on information sharing,
FBI managers and staff lack criteria and guidance by which to ensure that
appropriate information is disseminated to the appropriate parties either
within or outside the FBI. However, the FBI recently created Concepts of
Operations that serve as a framework for improving key aspects of its
intelligence program, including information sharing, and intends to develop
the policies and procedures required to implement the plan.

Improvements

      We found that based on their own reviews – and undoubtedly as a
result of Congressional investigations and hearings on the FBI’s
counterterrorism program – FBI managers were aware of the obstacles the
FBI faces in improving its ability to process and disseminate intelligence and
other information from multiple sources. Although most of the FBI’s efforts
to improve information and intelligence sharing are ongoing, we found that
fundamental reform has begun. Specifically, the FBI has taken the following
actions to improve its ability to communicate information within the FBI,
analyze intelligence, and disseminate information outside the FBI.

      •   Established the wide area network portion of Trilogy in preparation
          for IT improvements such as the Virtual Case File to replace ACS
          later this calendar year.

      •   Worked on a pilot of a TS/SCI network that has wired the CTD for
          access to higher-level classified intelligence information.

      •   Continued its longstanding exchange of managers with the CIA,
          including FBI personnel assigned to the CIA’s Counterterrorist
          Center and CIA personnel assigned to FBI CTD sections.

      •   Temporarily borrowed 25 analysts from the CIA to establish an
          interim corps of intelligence analysts and, under the direction of an
          experienced CIA manager, began hiring and training FBI


                                   - iv -



                     REDACTED AND UNCLASSIFIED
                REDACTED AND UNCLASSIFIED

    Intelligence Reports Officers and analysts within a defined career
    track.

•   Revamped the FBI analyst corps to establish a professional career
    track and a training program for Intelligence Analysts, Reports
    Officers, and Operations Specialists.

•   Named an Executive Assistant Director and a Deputy Assistant
    Director for a newly formed Office of Intelligence to oversee both
    terrorist-related and criminal intelligence matters, including
    management of the informant program.

•   Developed nine Concepts of Operations to establish goals and key
    principles for improving the core elements of the FBI’s intelligence
    program, including information sharing.

•   Restructured the CTD from two main sections to nine sections
    under three Deputy Assistant Directors, including new emphasis on
    analysis, terrorist threats, terrorist financing, and dissemination of
    intelligence and other information.

•   Provided intelligence reports and assessments to the intelligence
    community and certain other agencies.

•   Widely circulated information and declassified intelligence to the
    state and local law enforcement community through a weekly
    Intelligence Bulletin.

•   Provided threat information to state and local law enforcement
    through messages over the National Law Enforcement
    Telecommunications System.

•   Entered data on terrorist suspects to the National Crime
    Information Center system for access by state and local law
    enforcement officers.

•   Worked cooperatively with the CIA on the daily Threat Matrix and
    report to the President and produced a Presidential Report to
    provide information on current issues of concern to the
    White House, CIA, and Department of Homeland Security.



                              -v-



               REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

     •   Established less formal “Urgent Reports” for immediate notification
         of FBI managers concerning terrorist threats or other events
         deemed important for senior management attention.

     •   Established an interagency National Joint Terrorism Task Force at
         FBI headquarters to work more closely with other federal agencies.

     •   Worked on pilot projects to develop a shared investigative database
         with participating federal, state, and local law enforcement agencies
         at selected locations.

     •   Increased the number of Joint Terrorism Task Forces from 36 in
         2001 to 84 in 2003, in order to work with and share intelligence
         and other information with state and local law enforcement and
         other federal agencies.

     •   Managed the Foreign Terrorist Tracking Task Force to improve the
         FBI’s ability to identify terrorist suspects in the United States and to
         block the entry of terrorist suspects.

     •   Established an Office of Law Enforcement Coordination to act as a
         liaison to state and local law enforcement agencies.

       In June 2003, the new Executive Assistant Director for Intelligence
launched a 10-week initiative to develop Concepts of Operations for each of
9 core intelligence functions, including information sharing. The Concepts of
Operations provide a framework for developing formal policy and procedures
and give FBI managers guidance through broad principles for information
sharing. Also, the FBI is in the process of developing an FBI-wide enterprise
architecture. In conjunction with the enterprise architecture, the FBI should
develop a process map to define the current state and end state for its
information-sharing processes and an implementation plan to put its
Concepts of Operations into action.

Dissemination

      Other than by conversation or passing of documents by hand, the FBI
has nine primary ways of disseminating intelligence and other information
outside the FBI: 1) The Director’s Briefing, including input to the daily
Threat Matrix and the Presidential Report, 2) Intelligence Information
Reports as information dictates, 3) Intelligence Assessments,


                                   - vi -



                    REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED

4) Secure Video Teleconferencing System, 5) Urgent Reports, 6) weekly
Intelligence Bulletins, 7) Quarterly Terrorist Threat Assessments, 8) e-mail
messages, and 9) Terrorist Watch List in the National Crime Information
Center. Also, when the TS/SCI LAN is fully operational, the FBI will be able
to electronically transmit information, not only internally but to the broader
intelligence community. We analyzed the content of the nine methods of
information sharing to determine the nature of the information and to
evaluate its potential usefulness.

       The information disseminated by the FBI was generally useful,
although some items were classified and therefore available only to the
intelligence community or to those with the requisite security clearances.
Other items were either unclassified information or were modified to allow
broader distribution on a “law enforcement sensitive” basis. In the latter
category, in particular, the information in Intelligence Bulletins and Quarterly
Terrorist Threat Assessments varied as to content and usefulness for the
purposes of helping state and local law enforcement agencies deal with the
high-risk threat of radical Islamic fundamentalist terrorism. For example,
some of the information provided dealt with upcoming social protests or with
environmental extremists. While local law enforcement agencies nationwide
might be interested in the potential for criminal activities by such groups –
which fall under the FBI’s broad definition of terrorism – the focus of the
information the FBI provides to state and local law enforcement is not
always on international terrorism. Instead, much of the material
disseminated falls within the FBI’s definition of domestic terrorism. Our
specific observations about the nine types of information-sharing products
follows.

      1. The Director’s Briefing and Threat Matrix. The FBI Director’s
         morning briefing included a number of items, most notably the daily
         Threat Matrix for which the FBI provides information to the CIA and
         which in turn is used to prepare the President’s daily threat
         briefing.2 The Director’s Briefing also included a counterterrorism
         update, operational highlights, a summary of significant
         intelligence, and information on Foreign Intelligence Surveillance
         Act activities. The briefing and the matrix focused on international
         terrorism. Since the OIG’s September 2002 audit on the FBI’s

      2
        The interagency Terrorist Threat Integration Center (TTIC), established on
May 1, 2003, with CIA and FBI representation, has assumed responsibility for the Threat
Matrix and the Presidential Terrorism Threat Report, to which the FBI contributes.


                                        - vii -



                       REDACTED AND UNCLASSIFIED
               REDACTED AND UNCLASSIFIED

   Counterterrorism Program, the information in the matrix showed
   more analysis of the credibility of threats, relationships to other
   threats, and capacity to carry out a threat. After completion of our
   audit work, the FBI replaced the Director’s Briefing with a more
   broadly-focused Director’s Daily Report covering various FBI
   activities. Although we did not review the new reports, FBI officials
   indicated that counterterrorism aspects continued to be included in
   the report.

2. Intelligence Information Reports provide the FBI, intelligence
   community agencies, the White House, the State Department, the
   military, and other selected federal agencies with the specific
   results of classified intelligence collected on internationally-based
   terrorist suspects and activities, chiefly abroad. By design, the
   reports are not analyses or necessarily validated intelligence, and
   are not broad assessments or estimates. Rather, the reports are
   relatively short (several pages) narrative results of potentially
   actionable intelligence disseminated to parties with a need to know.
   In some cases, the FBI asks recipients to provide additional
   information on the topic.

3. Intelligence Assessment products are also being developed and
   issued by the FBI. For example, we reviewed the classified national
   threat assessment “The Terrorist Threat to the U.S. Homeland: An
   FBI Assessment” and found that this intelligence estimate is a
   comprehensive view of terrorist capabilities and intent. The report,
   produced at the Secret/SCI level, was distributed within the
   intelligence community.

4. The Secure Video Teleconferencing System provides an opportunity
   for frequent contact among members of the intelligence and
   counterterrorism community to communicate face-to-face and
   discuss terrorist and related intelligence. While video
   teleconferencing is limited to cleared federal personnel, the ability
   to directly share information on a real-time basis is valuable.

5. Urgent Reports are intended to provide breaking information quickly
   to senior FBI managers from field offices without the inherent delay
   of the formal EC, although the Urgent Reports are expected to be
   formalized through a subsequent EC. We reviewed 42 urgent
   reports issued during about a two-week period. The reports are in


                            - viii -



              REDACTED AND UNCLASSIFIED
               REDACTED AND UNCLASSIFIED

   e-mail format and are one or two pages in length. Urgent Reports
   can be on any topic and are not limited to terrorism. Of the reports
   we reviewed, 26 percent pertained to actual or suspected terrorism
   matters; others reported on criminal issues or on incidents at airline
   checkpoints.

6. Intelligence Bulletins, issued weekly, are intended to share
   information with state and local law enforcement agencies on an
   unclassified, law-enforcement-sensitive basis. The Bulletins are not
   alerts that give specific guidance to law enforcement agencies on
   preventing a terrorist act, but rather appear to be an effort to
   educate and raise general awareness about terrorism issues. The
   Bulletins are usually a page or two of general information on a
   variety of topics. Some Bulletins have provided information that
   would be useful to law enforcement agencies’ efforts to help detect
   and disrupt terrorist activities by radical Islamic fundamentalists.
   For example one Bulletin described terrorist surveillance
   techniques. Other Bulletins have covered upcoming social protests
   or protestors’ tactics. Of the 15 Bulletins we reviewed, 6 dealt with
   international terrorism topics, 6 were unrelated to the threat of
   international terrorism, and 3 gave general information on terrorism
   or called for vigilance.

7. Quarterly Terrorist Threat Assessments are approximately two
   dozen pages that provide state and local law enforcement agencies
   a general overview of the terrorist threat, the civil disturbance
   threat, and events in various regions of the world. These
   unclassified, law-enforcement-sensitive assessments discuss in
   general the potential for terrorist activities and provide background
   on terrorist methods. The assessments do not delineate specific
   steps that should be taken to thwart terrorist acts or investigate
   terrorist suspects. We reviewed five reports, which provide similar
   information with minor updates to each subsequent report.

8. E-mail messages over the National Law Enforcement
   Telecommunications System allow the FBI to instantly provide
   threat warnings or other information to state and local law
   enforcement personnel. In practice, the messages have varied in
   their relevance to the threat of international terrorism and in their
   guidance to state and local law enforcement agencies.



                             - ix -



              REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

      9. The FBI posts names from its Terrorist Watch List on the National
         Criminal Information Center database, along with guidance on what
         state or local law enforcement should do, for example, if they
         encounter a named individual during a traffic stop. The sharing of
         the watch list information is critical to integrating state and local
         law enforcement into the war on terrorism and greatly enhances
         the nation’s ability to identify and arrest or detain terrorist
         suspects.

Recommendations

      To improve its ability to provide useful information within the FBI and
to other federal, state, and local agencies, we make the following six
recommendations to the FBI based on the results of this audit:

         •   Using the Concepts of Operations as a framework, establish a
             written policy on – and procedures for – information sharing,
             including what types of information should be shared with what
             parties under what circumstances.

         •   Ensure that the FBI-wide enterprise architecture currently under
             development is accompanied by a process map for information
             sharing that clearly defines the current state and an end for the
             information-sharing process so that the numerous information
             sharing initiatives can be coordinated and properly monitored
             and managed.

         •   Consider transferring responsibility for investigating crimes
             committed by environmental, animal rights, and other domestic
             radical groups or individuals from the Counterterrorism Division
             to the Criminal Investigative Division, except where a domestic
             group or individual uses or seeks to use explosives or weapons
             of mass destruction to cause mass casualties.

         •   For each Concept of Operations, develop an implementation plan
             that includes a budget along with a time schedule detailing each
             step and identifying the responsible FBI official.

         •   Issue guidance on Urgent Reports so that top FBI managers’
             attention focuses on the most important matters of national
             security and public safety.


                                   -x-



                     REDACTED AND UNCLASSIFIED
             REDACTED AND UNCLASSIFIED



•   Focus the content of Intelligence Bulletins and Quarterly
    Terrorist Threat Assessments to provide – to the extent possible
    – actionable information on the high risk of international
    terrorism and any domestic terrorist activities aimed at creating
    mass casualties or destroying critical infrastructure, rather than
    information on social protests and domestic radicals’ criminal
    activities.




                          - xi -



            REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


                         TABLE OF CONTENTS


BACKGROUND ........................................................................... 1

FINDINGS AND RECOMMENDATIONS ........................................... 10
FINDING 1: IMPEDIMENTS TO SHARING INTELLIGENCE
              AND INFORMATION ........................................... 10
               Information Technology Systems ........................ 11
               Security Clearances .......................................... 14
               Intelligence Capability....................................... 17
               Policies and Procedures ..................................... 19
               Conclusions ..................................................... 23
               Recommendations ............................................ 24

FINDING 2: IMPROVEMENTS TO INFORMATION SHARING............... 25
               Information Technology .................................... 25
               Intelligence Analysis and Dissemination............... 28
               Reorganization of the Counterterrorism
                    Division .................................................... 32
               Task Forces ..................................................... 41
               The Office of Law Enforcement
                   Coordination .............................................. 44
               The Terrorist Threat Integration Center ............... 44
               Concepts of Operations ..................................... 46
               Conclusions ..................................................... 48
               Recommendations ............................................ 50

FINDING 3: DISSEMINATION OF INTELLIGENCE AND
              INFORMATION.................................................... 51
                Director’s Briefing and Report ............................ 51
                Intelligence Information Reports......................... 54
                Intelligence Assessments................................... 55
                Secure Video Teleconferencing System................ 56
                Urgent Reports ................................................ 57
                Intelligence Bulletins......................................... 58
                Quarterly Terrorist Threat Assessments ............... 60
                E-Mail Messages............................................... 61
                Terrorist Watch List .......................................... 62
                Conclusions ..................................................... 63
                Recommendations ............................................ 64

STATEMENT ON MANAGEMENT CONTROLS ................................... 65


                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

STATEMENT ON COMPLIANCE WITH LAWS AND
   REGULATIONS ..................................................................... 66

APPENDIX 1           OBJECTIVES, SCOPE, AND METHODOLOGY .......... 67

APPENDIX 2           ABBREVIATIONS .............................................. 69

APPENDIX 3           COUNTERTERRORISM DIVISION STATUS OF
                     PERSONNEL AS OF 3/19/03 ............................... 72

APPENDIX 4           GATEWAY PROJECT .......................................... 74

APPENDIX 5           POSSIBLE INDICATORS OF AL-QAEDA
                     SURVEILLANCE ............................................... 77

APPENDIX 6           POTENTIAL FOR CRIMINAL ACTIVITY AT ANTIWAR
                     PROTESTS....................................................... 80

APPENDIX 7           FBI’S RESPONSE TO DRAFT REPORT ................... 82

APPENDIX 8           OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                     AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
                     REPORT .......................................................... 90




                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED

                                  BACKGROUND

Authorities

      The Federal Bureau of Investigation’s (FBI) authorities in
counterterrorism derive from legislation and from several
National Security Directives and Presidential Decision Directives
(PDD).3 Title 28, United States Code, Section 533 authorizes the
Attorney General to appoint officials “to detect and prosecute crimes
against the United States.” Under this authority, the Attorney General
has assigned the FBI “lead agency responsibilities in investigating all
crimes for which it has primary or concurrent jurisdiction and which
involve terrorist activities or acts in preparation of terrorist activities
within the statutory jurisdiction of the United States.” National
Security Directive 207, issued in 1986, assigned responsibility to the
FBI for responding to terrorist attacks, stating: “The Lead Agency will
normally be designated as follows: the Department of Justice for
terrorist incidents that take place within the U.S. territory. Unless
otherwise specified by the Attorney General, the FBI will be the Lead
Agency within the Department of Justice for operational response to
such incidents.”

      Following the bombing of the Murrah Federal Building in
Oklahoma City in April 1995, the President issued Presidential Decision
Directive (PDD) 39, which directs responsible federal agencies to take
various measures aimed at: 1) reducing vulnerabilities to terrorism,
2) deterring and responding to terrorism, and 3) preventing and
managing the consequences of terrorist uses of weapons of mass
destruction (WMD). The FBI specifically is tasked with reducing the
United States’ vulnerability to terrorism through an expanded program
of counterterrorism. PDD 39 also requires the FBI Director to ensure
that the FBI’s counterterrorism capabilities are well managed, funded,
and exercised.

      In May 1998, the President issued PDD 62, which clarified the
roles and activities of many of the agencies involved in the war against
terrorism. The directive addresses the prevention of terrorist acts,
apprehension of terrorists, prosecution of terrorists, and consequence
management after terrorist acts. The directive also includes


      3
          A complete list of abbreviations appears in Appendix 2.

                                       -1-


                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

transportation security and the protection of critical computer-based
systems.

       Following the September 2001 terrorist attacks, Congress passed
and the President signed into law the Uniting and Strengthening
America by Providing Appropriate Tools Required to Intercept and
Obstruct Terrorism Act of 2001 (Patriot Act). The Patriot Act lifted
legal barriers to the sharing of foreign intelligence information between
the federal intelligence community and the federal law enforcement
community. Section 203 of the Patriot Act authorizes the sharing with
the FBI of foreign intelligence, counterintelligence, and foreign
intelligence information whether obtained through grand jury
proceedings or through authorized surveillance methods. Section
905(a) of the Patriot Act authorizes the Attorney General to disclose to
the Director of Central Intelligence, foreign intelligence acquired in the
course of a criminal investigation. As mandated in the Patriot Act, the
Attorney General established classified “Guidelines for Disclosure of
Grand Jury and Electronic, Wire, and Oral Interception Information
Identifying United States Persons” and “Guidelines Regarding
Disclosure to the Director of Central Intelligence and Homeland
Security Officials of Foreign Intelligence Acquired in the Course of a
Criminal Investigation.”

       Further, the Attorney General’s “Guidelines on General Crimes,
Racketeering Enterprise and Terrorism Enterprise Investigations,”
issued May 30, 2002, govern the dissemination of intelligence in
domestic terrorism situations. Specifically, the guidelines authorize
the FBI to disseminate information acquired during the checking of
leads, preliminary inquiries, and investigations conducted within the
guidelines to another federal agency or to a state or local criminal
justice agency when such information:

   •   falls within the investigative or protective jurisdiction or litigative
       responsibility of the agency;

   •   may assist in preventing a crime or the use of violence or any
       other conduct dangerous to human life;




                                   -2-


                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

   •   is required to be furnished to another Federal agency by
       Executive Order 10450;4 or

   •   is required to be disseminated by statute, interagency
       agreement approved by the Attorney General, or
       Presidential Directive.

       Intelligence Authorities

       In addition to the FBI’s law enforcement authorities for
counterterrorism, the FBI also has authorities for intelligence activities.
The three main authorities for intelligence are Executive Order 12333,
the National Security Act of 1947, and a series of Director of Central
Intelligence Directives (DCID).5

       Executive Order 12333, issued in December 1981, authorizes the
FBI within the United States to collect, produce, and disseminate
foreign intelligence. However, the order states that intelligence
community agencies such as the FBI are authorized to collect
information on U.S. persons only in accordance with procedures
established by the head of the agency concerned and approved by the
Attorney General. The National Security Act of 1947 includes the FBI
in its authorization of foreign intelligence activities by the intelligence
community. Such activities include those designed to protect against
international terrorist activities. This foreign intelligence authority
supplements the FBI’s investigative authority.

   Under the DCIDs that implement national foreign intelligence
requirements, the FBI disseminates foreign intelligence acquired in the
course of investigations conducted in accordance with FBI priorities
and guidelines. Thus, when the FBI recruits sources in its


       4
         Executive Order 10450 establishes security requirements for government
employees. Section 5 states: “Whenever there is developed or received information
indicating that the retention in employment of any officer or employee of the
Government may not be consistent with the interest of national security, such
information shall be forwarded to the head of the employing department or agency…”
       5
         DCIDs are the principal means by which the Director of Central Intelligence
(DCI) provides guidance, policy, and direction to the intelligence community
pursuant to authorities of the DCI as the head of the intelligence community. DCIDs
are normally coordinated through the Intelligence Community Deputies Committee
and intelligence community working groups.

                                     -3-


                    REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

investigations to protect the United States from terrorist attack, those
sources may be queried on other foreign intelligence topics to meet
national requirements. The DCIDs applicable to the FBI’s management
of foreign intelligence collection and production include:

   •   DCID 2/3 implements the National Intelligence Priorities
       Framework, which translates national foreign intelligence
       objectives and priorities approved by the President into specific
       prioritization guidance for the intelligence community;

   •   DCID 2/1 establishes the authorities and responsibilities of the
       Assistant DCI for Analysis and Production and the National
       Intelligence Analysis and Production to oversee, monitor, and
       evaluate national intelligence production;

   •   DCID 3/1 establishes the authorities and responsibilities of the
       Assistant DCI for Collection and the National Intelligence
       Collection Board to oversee, monitor, and evaluate intelligence
       collection;

   •   DCID 3/7 concerns the National Human Intelligence
       Requirements Tasking Center, which coordinates the National
       Human Intelligence Directives that guide FBI foreign intelligence
       collection;

   •   DCID 6/1 covers security policy for SCI;

   •   DCID 6/3 covers the protection of SCI within information
       systems,

   •   DCID 6/6 addresses security controls for the dissemination of
       intelligence information; and

   •   DCID 6/7 establishes policy for the disclosure or release of
       classified U.S. intelligence to foreign governments and
       international organizations.

Organization and Resources

     During our audit, the FBI’s Counterterrorism Division (CTD) was
completing a major reorganization begun by the FBI Director in the


                                 -4-


                  REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

spring of 2002. In written testimony for the Senate Judiciary
Committee in June 2002, the Director stated:

       A significant restructuring and expansion of the Counterterrorism
       Division at FBI headquarters is being proposed for three basic
       reasons. First, the more direct role envisioned for the
       Counterterrorism Division in managing investigations, providing
       operational support to field offices, and collaborating with law
       enforcement and the Intelligence Community partners requires
       additional staff at Headquarters. Second, implementing a more
       proactive approach to preventing terrorist acts and denying
       terrorist groups the ability to operate and raise funds requires a
       centralized and robust analytical capacity that does not exist in
       the present Counterterrorism Division. Third, processing and
       exploiting the information gathered domestically and from
       abroad during the course of the PENTTBOM [Pentagon-Trade
       Towers Bombing Investigation] and related investigation
       requires an enhanced analytical and data mining capacity that is
       not presently available.

       The two main operating sections under the FBI’s former
structure were the International Terrorism Operations Section and the
Domestic Terrorism Operations Section. An Assistant Director led the
CTD, and a Deputy Assistant Director was directly responsible for the
two sections. The National Domestic Preparedness Office, responsible
for interagency coordination with state and local emergency
responders, also reported to the Deputy Assistant Director. The two
counterterrorism sections contained functional units. For example,
within the International Terrorism Operations Section were the
Usama bin Ladin Unit and the Radical Fundamentalist Unit.6

       The reorganization expanded the CTD from two sections to nine.
As shown in the following chart, the new CTD organization created
three branches under Deputy Assistant Directors: Counterterrorism
Operations, Operational Support, and Counterterrorism Analysis. The
CTD organizational structure is discussed in greater detail in Finding 2
of this report.


       6
        Although this name is often spelled “Osama bin Ladin,” within the FBI the
name is spelled as “Usama bin Ladin,” so we will use that spelling in this report.



                                      -5-


                    REDACTED AND UNCLASSIFIED
                                                                                  REDACTED AND UNCLASSIFIED

                                                                                  Counterterrorism Division Organizational Chart

                                                                                                                  Assisstant Director
                                                                                                               Counterterrorism Division


                                                                                                   Executive Staff




                                                  Deputy Assistant Director                                                                              Deputy Assistant Director                             Deputy Assistant Director
                                                   CT Operations Branch                                                                                 Operational Support Branch                               CT Analysis Branch


                                                                                                                                            CT Administrative               Foreign Terrorist    Strategic Assessment             Presidential Support
  Terrorist Financing       Domestic Terrorism     International Terrorism    International Terrorism         Terrorism Reports and         and Resource Unit              Tracking Task Force     and Analysis Unit                     Group
  Operations Section        Operations Section      Operations Section I       Operations Section II          Requirements Section


                                                                                                                                               FBI Detailees                                        Production and
                                                                                                                                           To Other Government                                     Publications Unit
Radical Fundamentalist      Domestic Terrorism            Regional              Global Operations               Reports Policy and               Agencies
Financial Investigative      Operations Unit         Extraterritorial Unit             Unit                     Assest Vetting Unit
          Unit

                                                                                                                                               CT Operational               National Threat         Counterterrorism              Communications
                                                                                                                                              Response Section              Center Section          Analysis Section              Analysis Section
  Domestic WMD and         WMD Unconventional              Conus I                Middle East                Radical Fundamentalist
    Global Financial        Threats Operations                                   Operations Unit              Extremist Collection,
  Investigations Unit              Unit                                                                     Evaluation, Dissemination
                                                                                                                       Unit
                                                                                                                                           National Joint Terrorism         CT Watch Unit           Domestic Sunni             Document Exploitation
                                                                                                                                                 Task Force                                         Extremist Unit                    Unit


   Global Extremist         Special Events Unit           Conus II                Iran/Hizballah               Global Middle East
Financial Investigations                                                               Unit                   Extremist Collection,
          Unit                                                                                              Evaluation, Dissemination
                                                                                                                                                  Fly Away                Terrorist Watch and       Shia/Middle East          Communications Analysis
                                                                                                                       Unit
                                                                                                                                           Rapid Deployment Team             Warning Unit            Analysis Unit                    Unit
                                                                                                                                                     Unit


 Financial Intelligence    WMD Unconventional                                                                 WMD Unconventional
     Analysis Unit                Threat                                                                        Threat Collection,
                           Countermeasures Unit                                                             Evaluation, Dissemination
                                                                                                                                              Military Liaison &        Threat Monitoring Unit    Foreign Links/Global        Electronic Communication
                                                                                                                       Unit
                                                                                                                                               Detainee Unit                                     Targets Aanalysis Unit              Analysis Unit



                                                                                                              Domestic Collection,
                                                                                                            Evaluation, Dissemination
                                                                                                                       Unit
                                                                                                                                                                                                   Domestic Terrorism               Digital Media
                                                                                                                                                                                                     Analysis Unit                Exploitation Unit




                                                                                                                                                                                                  WMD and Emerging
                                                                                                                                                                                                  Weapons Threat Unit
                                                                              REDACTED AND UNCLASSIFIED
                                                                                                                     -6-
                         REDACTED AND UNCLASSIFIED


       The CTD expansion led the FBI to increase both the number of agents
assigned to the division and the number assigned to the Joint Terrorism Task
Forces (JTTF). During an April 10, 2003, appropriations hearing the Director
testified that the FBI has shifted about 500 field agents from criminal
investigations to counterterrorism investigations and activities.7 According
to the U.S. General Accounting Office (GAO), in fiscal year (FY) 2003 about
36 percent of the FBI’s field agents worked on counterterrorism,
counterintelligence, and cyber matters compared to 26 percent in FY 2002.8
The CTD Assistant Director stated in February 2003 that the FBI had
[CLASSIFIED INFORMATION REDACTED] agents assigned to
counterterrorism matters, of which [CLASSIFIED INFORMATION REDACTED]
are covering international terrorism and 500 are covering domestic
terrorism. The Assistant Director also stated that of the total agents
assigned to counterterrorism, [CLASSIFIED INFORMATION REDACTED] are
assigned to JTTFs. As of March 14, 2003, the CTD had [CLASSIFIED
INFORMATION REDACTED] support personnel onboard and another
[CLASSIFIED INFORMATION REDACTED] pending background checks. The
CTD has undertaken a major hiring effort to fill new positions required to
support the war on terrorism. The expansion of the division and the
increased staffing levels are directly related to a steady increase in the
Division’s budget. The CTD budget allocation increased from [CLASSIFIED
INFORMATION REDACTED] in 2002 to [CLASSIFIED INFORMATION
REDACTED] in 2003. In its 2004 budget submission, the FBI has requested
[CLASSIFIED INFORMATION REDACTED] for the CTD.

Prior Reviews

      In September 2002, the Office of the Inspector General (OIG) issued
an audit report entitled, “A Review of the Federal Bureau of Investigation’s
Counterterrorism Program: Threat Assessment, Strategic Planning, and
Resource Management” (Report 02-38). This audit focused on: 1) the FBI’s
progress toward developing a national-level risk assessment of the terrorist
threat to the United States; 2) whether the FBI’s strategic planning process
provides a sound basis to identify counterterrorism requirements; and 3) the
amount of resources dedicated to the FBI’s counterterrorism program from

       7
         Hearing of the Commerce, Justice, State, and Judiciary Subcommittee of the Senate
Appropriations Committee on the Fiscal Year 2004 Appropriations for the FBI
(April 10, 2003).
       8
        The report is entitled: “FBI Reorganization: Progress Made in Efforts to Transform,
but Major Challenges Continue” (GAO-03-759T, June 18, 2003).

                                         -7-



                       REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


1995 to April 2002. In addition, the audit assessed the FBI’s management
of its training and after-action reporting as they relate to counterterrorism
operations.

      The OIG’s audit found that the FBI had not developed a comprehensive
written assessment of the risk of terrorist threat facing the United States
and that its strategic plan had not been updated. The OIG also found that
the level of resources that the FBI dedicated to counterterrorism and
counterintelligence increased dramatically between 1995 and 2002. The OIG
made 14 recommendations to the FBI.

       The GAO has performed audits and has testified frequently about the
federal government’s efforts to combat terrorism, including the FBI’s role.
In June 2003, the Comptroller General testified before the Subcommittee on
Commerce, Justice, State, and the Judiciary, Committee on Appropriations,
House of Representatives on the FBI’s reorganization efforts.9 In April 2003,
the GAO reported that to protect the nation’s borders, federal agencies
maintain 12 different watch lists.10 One of the watch lists cited was the FBI’s
Violent Gang and Terrorist Organization File. The GAO recommended that
the Department of Homeland Security (DHS) lead an effort to consolidate
and standardize the disparate watch lists. The GAO also has reported and
testified on the need for better interagency coordination. For example, in
September 2001 the GAO reported on overlapping functions among several
agencies with counterterrorism responsibilities,11 and in October 2002 the
Comptroller General stated the following in testimony before the Senate
Select Committee on Intelligence and House Permanent Select Committee
on Intelligence.12



       9
        The testimony is entitled “FBI Reorganization: Progress Made in Efforts to
Transform, but Major Challenges Continue” (GAO-03-759T) and updates June 2002
testimony entitled “FBI Reorganization: Initial Steps Encouraging but Broad Transformation
Needed” (GAO-02-865T).
       10
         The report is entitled “Information Technology: Terrorist Watch Lists Should Be
Consolidated to Promote Better Integration and Sharing” (GAO-03-322, April 15, 2003).
       11
       The report is entitled “Combating Terrorism: Selected Challenges and Related
Recommendations” (GAO-01-822, September 20, 2001).
       12
        The testimony is entitled “Homeland Security: Information-Sharing Activities Face
Continued Management Challenges” (GAO-02-1122T, October 1, 2002).

                                         -8-



                       REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


      The success of a homeland security strategy relies on the ability of all
      levels of government and the private sector to communicate and
      cooperate effectively with one another. Activities that are hampered
      by organizational fragmentation, technological impediments, or
      ineffective collaboration blunt the nation’s collective efforts to prevent
      or minimize terrorist acts.

      As we note in the following sections of this report, the FBI has been
taking steps to improve its counterterrorism and intelligence capabilities,
including the sharing of information both within and outside the FBI.13




      13
         Our objectives, scope, and methodology appear in Appendix 1. The details of our
work are contained in the Findings and Recommendations sections of the report.




                                        -9-



                       REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED


                FINDINGS AND RECOMMENDATIONS

FINDING 1: Impediments to Sharing Intelligence and
           Information

    The FBI has realized that to effectively carry out its post-
    September 11 mission to prevent future terrorist acts, it
    must improve its ability to share intelligence and related
    information both internally and with the intelligence
    community, other federal agencies, and state and local law
    enforcement agencies. The FBI has acknowledged that it
    faces a number of impediments to improving its
    intelligence and information sharing. We have grouped
    these impediments into four categories: 1) information
    technology (IT), 2) security clearances, 3) intelligence
    capability, and 4) policies and procedures.

    With respect to IT, the FBI has lacked secure and modern
    systems to electronically transfer information both within
    the FBI and to outside organizations. Second, security
    considerations have prevented the full dissemination of
    intelligence, especially outside the federal community,
    because recipients must have security clearances and a
    need to know the information. Also, in keeping with
    standard intelligence community policy, before
    disseminating intelligence outside the intelligence
    community the FBI must obtain the permission of the
    “owner” if the FBI is not the originator of the information.

    The third obstacle affecting the FBI’s ability to disseminate
    intelligence and other sensitive information has been the
    FBI’s organization and culture as a reactive law
    enforcement agency. The Director is attempting to
    transform the FBI into an agency that can gather, analyze,
    and disseminate intelligence to prevent terrorist acts
    rather than only investigating such acts after the fact.
    Lastly, the FBI lacks written policies and procedures for
    guiding and ensuring that information is shared
    appropriately and an overall strategy and blueprint for
    managing and controlling the numerous initiatives for
    improving information sharing at various organizational

                                 - 10 -



                  REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       levels. However, the FBI recently created Concepts of
       Operations that serve as a framework for improving key
       aspects of its intelligence program, including information
       sharing, and intends to develop the policies and
       procedures required to implement the plan.

Information Technology Systems

     In December 2002, we reported that the FBI has not effectively
managed its IT because it has not fully implemented the management
processes associated with successful IT investments.14 The foundation for
sound IT investment management (ITIM) includes the following fundamental
elements:

       •    defining and developing IT investment boards;

       •    following a disciplined process of tracking and overseeing each
            project’s cost and schedule milestones over time;

       •    identifying existing IT systems and projects;

       •    identifying the business needs for each IT project; and

       •    using defined processes to select new IT project proposals.

       We reported that the FBI failed to implement these critical processes.
We found that the FBI did not have fully functioning IT investment boards
that were engaged in all phases of IT investment management. The FBI was
not following a disciplined process of tracking and overseeing each project’s
cost and schedule milestones. The FBI also failed to document a complete
inventory of existing IT systems and projects, and did not consistently
identify the business needs for each IT project. The FBI did not have a fully
established process for selecting new IT project proposals that considered
both existing IT projects and new projects.

     We found that because the FBI has not fully implemented the critical
processes associated with effective IT investment management, the FBI


       14
         The OIG audit report is entitled “Federal Bureau of Investigation’s Management of
Information Technology Investments” (Report 03-09).

                                        - 11 -



                       REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


continued to spend hundreds of millions of dollars on IT projects without
adequate assurance that these projects will meet their intended goals.
We concluded that these shortcomings primarily resulted from the FBI not
devoting sufficient management attention in the past to IT investment
management.

       Nearly every Section Chief and other FBI managers we interviewed for
this audit stressed that the foundation for information sharing, both
internally and externally, is reliable, modern, and user friendly IT systems.
These same FBI managers said that the FBI’s obsolete IT systems were the
greatest impediment to the FBI’s ability to efficiently and effectively
disseminate information within the FBI and to other agencies. One manager
detailed from the Central Intelligence Agency (CIA) to the FBI summarized
the place of technology in information dissemination by saying: “Technology
is the key to everything.” The FBI managers pointed out that the FBI’s
ability to fully and effectively share information depends on its success in
implementing the IT initiatives currently underway. Specifically, they said
the success of the Virtual Case File (VCF) and the Secure Counterterrorism
Operational Prototype Environment (SCOPE) components of the FBI’s Trilogy
system, currently under development, are crucial to improving the FBI’s
ability to share intelligence and other key information. The managers also
emphasized the critical need for a secure Top Secret and Sensitive
Compartmented Information Local Area Network (TS/SCI LAN) to allow for
the electronic dissemination of the most sensitive and vital intelligence.
These systems are discussed in further detail in Finding 2 of this report.

      The September 11 Joint Inquiry15 found that the FBI’s IT weaknesses
contributed to the FBI’s inability to properly respond to the Phoenix
memorandum.16

       Inadequate information sharing within the FBI, particularly between
       the operational and analytical units, is also highlighted by our review

       15
           The Joint Inquiry into the September 11 attacks, conducted by the Senate Select
Committee on Intelligence and the House Permanent Select Committee on Intelligence,
examined the intelligence community’s activities before and after the September 11, 2001,
terrorist attacks on the United States.
       16
          The Phoenix memorandum, or Electronic Communication, was written by an agent
in the FBI’s Phoenix field office to the FBI’s Counterterrorism Division on July 10, 2001. The
memorandum outlined the agent’s concerns about a coordinated effort underway by Usama
bin Ladin to send students to the U.S. for civil aviation training.

                                         - 12 -



                        REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      of the Phoenix Electronic Communication (EC). Several of the
      addressees on the EC, especially at the supervisory level, did not
      receive it prior to September 11 due to limitations in the electronic
      dissemination system.

FBI officials we interviewed echoed this observation.

       One Section Chief we interviewed described the vital role of IT in
disseminating intelligence, saying that until the FBI’s IT weaknesses are
corrected, the FBI will have an information-sharing problem. According to
this official, for the past 20 years the FBI’s IT systems have been patched
instead of replaced; information the FBI does share is disseminated despite
the FBI’s IT systems, not because of them. According to this official, the
major IT problems the FBI faces include: 1) the FBI’s antiquated
investigative case management system known as Automated Case Support,
or ACS, is approved for the storage and transmission of information only up
to the secret level; 2) the FBI is connected to the Department of Defense
(DOD) systems on a fiber optic cable, but the connection to the CIA is not
fiber optic; and 3) the FBI’s ACS system is so obsolete that no other agency
wants to use it. As a case management system, ACS was not designed for
communicating with other agencies. Under ACS, all documents, including
ECs, require handwritten signatures; therefore, all documents are physically
passed from person to person as they move through the review chain.
The FBI’s fundamental information-sharing problem is the inability to move
classified information, especially TS and/or SCI, securely outside of the FBI.
Due to the FBI’s IT limitations, even e-mails cannot be forwarded securely to
the CIA. Instead, FBI personnel must print a paper version of the e-mail
and provide this to their CIA counterparts.

       Because the FBI does not have a system that can communicate
securely with other agencies, it is forced to rely on teletypes to receive and
disseminate intelligence. However, teletypes are a difficult method of
communicating classified information because the information cannot easily
be transferred to teletype from another type of electronic media and
because teletypes are not user friendly. Further, according to several FBI
managers we interviewed, incoming cables or other information from the
intelligence community were often not disseminated or disseminated timely
to those who needed the information for analytical or operational purposes.
Information often was misdirected if the addressee had changed positions or
the specific unit was not designated.



                                   - 13 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


      In contrast, the CIA has developed much more efficient IT systems to
share intelligence information. For example, detailees from the FBI to the
CIA share paper copies of FBI Form 302 investigation records with their CIA
counterparts. If the CIA officials think the information is valuable, a Form
302 can be uploaded into the CIA system, making it searchable.

      The efforts of the FBI to correct its IT deficiencies are discussed in
Finding 2 of this report.

Security Clearances

       When the FBI disseminates intelligence and other classified
information, it must ensure that only the appropriate people receive the
information. Specifically, the recipients of classified information must have a
need to know the information and have been granted the proper level of
security clearance. Further, if the FBI is not the originator of the
information, the FBI must have received permission to disseminate the
information. Permission from the originator may require revision of the
information to render the information unclassified or modified to protect
intelligence sources and methods.

       Obtaining security clearances for state and local law enforcement
personnel is in itself an obstacle to disseminating information. The FBI has
been working to provide clearances to state and local law enforcement
officers who need the clearances. To that end, since the September 11
terrorist attacks, the FBI has issued over 800 security clearances to state
and local law enforcement personnel.

       The process for obtaining a security clearance is cumbersome and time
consuming and a process over which the FBI has little control. The
application forms are the same ones that federal employees use, including
FBI agents, when applying for a security clearance. The forms are lengthy
and detailed. For example, applicants are required to list their residences
for the last seven years along with details on education, employment,
foreign travel, and other data. After the forms are completed, background
investigations are conducted on each applicant. These background
investigations are mandated by Presidential Executive Order. Compounding
the expense and time required to grant a security clearance to a state or
local law enforcement official is the perception, according to the Police
Executive Research Forum, by some state and local officials that they should
not have to undergo the same background investigation process as other

                                    - 14 -



                    REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


people who receive security clearances.17 FBI officials told us that some
state and local law enforcement executives think that their position alone
demonstrates their trustworthiness.

       Because not all state and local law enforcement officials who need
security clearances have the clearances, the FBI is often constrained from
providing detailed classified information to state and local law enforcement
officials. As described subsequently in this report, the FBI is disseminating
information to state and local officials on an unclassified but “law
enforcement sensitive” basis except for members of JTTFs, all of whom hold
security clearances. FBI officials told us, however, in the event of a high
priority case where there is a threat to life, the FBI would provide the
pertinent information to those with a need to know by granting interim
clearances to those individuals.

       Security classifications may also inhibit the FBI from disseminating
information. According to one FBI Section Chief, the FBI does not originate
90 percent of the intelligence it uses. The agency that originally collected
the intelligence may mark it ORCON, or originator controlled. All agencies
that receive this information must receive permission from the originating
agency before further dissemination. Agencies usually mark a document
ORCON for two reasons. First, it allows the originating agency to protect the
sources and methods disclosed in the classified document. Second, it is a
vehicle to allow the originating agency to control how the information or
conclusions in a document are used. FBI officials with whom we spoke said
they thought that some of the criticism of the FBI for not sharing raw
intelligence is misplaced because the information is often controlled by
another agency. The FBI works with the CIA and other intelligence agencies
to have information approved for dissemination by deleting sources and
methods so the FBI can disseminate intelligence more quickly. The use of
“tear lines” aids in achieving this goal. Documents containing tear lines are
broken into sections. Some sections contain summary information and
others contain detailed information such as sources and methods. The
sections containing summary information can be disseminated to those with


       17
          The Police Executive Research Forum is a national organization of police executives
from the largest city, county, and state law enforcement agencies. The Forum is dedicated
to improving policing and advancing professionalism through research and involvement in
public policy debate. FBI Director Mueller addressed the Forum’s annual meeting in May
2002.



                                         - 15 -



                       REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


proper clearances. The sections containing sources and methods cannot be
disseminated.

       Although the FBI faces a number of security-related constraints as to
what information it can lawfully share with state and local law enforcement
agencies, it is under increasing pressure to release as much information as
possible. For example, the House Permanent Select Committee on
Intelligence in its recent report on the 2004 intelligence authorization states
that:

      Committee members remain concerned that information sharing
      between the FBI and state and local law enforcement colleagues still
      needs improvements. The Committee strongly urges the FBI to place
      high priority on making additional progress on this issue.

       FBI officials told us that state and local law enforcement agencies
often perceive that the FBI has more information than it is willing to share.
This condition leads state and local law enforcement officials to sometimes
have unrealistic expectations about what information the FBI can provide.
For example, when the DHS increases the threat level, FBI officials are often
asked for information about the specific threat. As is reasonable, officials
from state and local law enforcement agencies often want to know whether
anything in their jurisdiction is being specifically targeted. FBI officials
usually do not have any information about specific targets. However, FBI
officials with whom we spoke said that state and local law enforcement
officials often believe the FBI is withholding information when told that the
FBI does not have any specific threat information. FBI officials speculated
that some state and local law enforcement officials may have this
misconception about the detail available concerning threat information
because the officials have not been involved in the collection and
dissemination of intelligence. A Police Executive Research Forum white
paper quotes a law enforcement executive as saying that local law
enforcement “…often presumes that federal agencies are withholding
detailed, relevant, and important information. We need to work on issues of
mutual trust so that we can share what information there is, while retaining
necessary security and integrity.”18




      18
        The white paper, issued in March 2003, is entitled “Protecting Your Community
From Terrorism: Strategies for Local Law Enforcement.”

                                       - 16 -



                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       FBI managers told us they are pushing their subordinates to share as
much information as possible. Some managers expressed concern that the
pendulum has swung too far in the FBI’s efforts at openness and the key
concepts for sharing classified information are sometimes ignored by the
recipients. One FBI Section Chief told us that he believes the FBI sometimes
shares more information than it should and that originator control of
classified information and “need to know” are important requirements that
other agencies need to honor. He argued that originator control of
intelligence is a valuable tool that allows limited dissemination and control at
the same time. Further, he said, every intelligence organization has to be
able to control its information because the free flow of information can
expose investigations and put agents’ lives in jeopardy. He believes that
some recipients currently may be disseminating ORCON information without
permission and that some parties who receive intelligence or other sensitive
information unilaterally decide to disseminate information that should go no
farther than the immediate recipient.

       FBI officials told us, however, that some leaks of sensitive information
are the price to be paid for greater information sharing outside of the
intelligence community. One official used a law enforcement sensitive FBI
bulletin (discussed in Finding 3) as an example of leaks occurring when the
FBI shares information. He noted that the information the FBI disseminates
to the state and local law enforcement community frequently is seen or
heard in the news media nearly immediately upon distribution.

Intelligence Capability

       The FBI Director recognized as a result of the September 11 attacks
that the FBI needed to develop a greater domestic intelligence capability to
meet its new priority of preventing future terrorism. The FBI has a
longstanding reputation as an investigative and law enforcement agency,
and the Director’s attempt to transform the FBI into a law enforcement
agency with an intelligence capability to thwart terrorism represents a
significant cultural change. As discussed in Finding 2, many steps toward
this transformation have begun, including the establishment of an Executive
Assistant Director for Intelligence, an Analysis Branch, a Terrorism Reports
and Requirements Section, and a College of Analytical Studies. We heard
repeatedly from FBI managers that the FBI needs to produce more
intelligence products.




                                   - 17 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       In our September 2002 report on the management of the FBI’s
counterterrorism program, we described the need for the FBI to add
professional intelligence staff to help the FBI meet a clear need for
improving its ability to collect, analyze, and disseminate threat information.
At that time, some FBI managers described the FBI’s analytical capability as
“broken.” Others on terrorism-related commissions and in Congress have
suggested that the FBI’s intelligence capability was virtually nonexistent.
Specifically, the FBI had difficulty pulling information together from a variety
of sources, analyzing the information, and disseminating it. In other words,
the FBI lacked the ability to “connect the dots” or create a mosaic of
information. Moreover, the FBI lacked the capability to prepare a strategic
or “big picture” intelligence estimate or threat assessment. Our
September 2002 report concluded that the FBI lacked a professional corps of
intelligence analysts with a defined career path, standards for training or
experience, or a system for effectively deploying and utilizing analysts to
assess priority threats at either the tactical (investigative or operational)
level or the strategic (long-term or predictive) level.

       Until June 2002 when the CIA detailed managers and analysts to the
FBI to help establish a professional intelligence function, the FBI did not
have Reports Officers similar to the CIA’s Collection Management Officer.
Reports Officers glean intelligence, summarize the information, and
disseminate the information to those with operational responsibilities.
According to the Section Chief of the FBI’s Terrorism Reports and
Requirements Section, who is a CIA manager on detail to the FBI, the
greatest challenge to building the FBI’s intelligence reporting capability is the
hiring and training of qualified Reports Officers. The Section Chief
emphasized that it is better to do the staffing right rather than quickly, and
she estimated that it would take about a year to fully staff the section. At
the time of our audit, in February 2003, the section had 12 Reports Officers
out of an authorized staffing level of 96 FBI-wide, including field offices. Of
the 12 Reports Officers on board, 5 were recent college graduates, a few
were from the FBI’s Surveillance Operations Group, a few were GS-14 FBI
Intelligence Operations Specialists, and 1 was a former military intelligence
officer. In addition to those Reports Officers already on board, an additional
20 were undergoing background checks. According to the Section Chief, the
work of Reports Officers is the type of work that people with the right
fundamental skills or experience can learn. As a result, the Section Chief
has focused on recent college graduates, people with government
experience, and people with experience in terrorism issues.



                                   - 18 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       Once hired, the new Reports Officers will need to be trained. Because
the Reports Officer position is new to the FBI, the FBI needs to create a
training program. At the time of our audit, the FBI Academy at Quantico did
not offer appropriate training, so a new training curriculum had to be
developed. The Terrorism Reports and Requirements Section Chief
recognized the need for such a program and developed the framework for a
Reports Officers’ training program. The plan was to contract out for the
training. The Section Chief envisioned four 2-week regional classes,
followed by a 30- to 60-day detail to FBI headquarters to gain a hands-on
perspective. Advanced training will be needed once the section is
operational for three to five years. In contrast, [CLASSIFIED INFORMATION
REDACTED].

      The hiring of analysts has been slowed by issues concerning security
clearances and pay. Intelligence agencies throughout the government are
competing for the same pool of qualified applicants.

      The Section Chief of one of the International Terrorism Sections stated
that the FBI’s newly created analytical capability is already aiding FBI
operations. FBI officials said that in the 1990s, the FBI did not know how to
do counterterrorism analysis but the current analysts program is moving
forward. The analysts work for the Chief of the Counterterrorism Analysis
Section, and he sets the analysts’ priorities. The FBI does not yet have a
formalized system for requesting analytical products but it was working on
one. While the FBI is modeling the organization and function of its analytical
component on the CIA, the FBI cannot completely mirror the CIA’s analytical
operations because the CIA’s IT system “pushes,” or automatically sends,
information to those with a need to know. The FBI’s systems require
Reports Officers and analysts to “pull,” or search for, information they need
to complete an analysis or report.

Policies and Procedures

      When we began our audit, the FBI did not have policies or procedures
to guide FBI managers and personnel in what information should be shared
or disseminated, with whom the information should be shared or
disseminated, and in what manner. In June 2003, the new Executive
Assistant Director for Intelligence launched a 10-week initiative to develop
Concepts of Operations for each of 9 core intelligence functions, including
information sharing. These plans, described in more detail in Finding 2,
provide a vision for reinventing the FBI’s intelligence program and correcting

                                  - 19 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


existing weaknesses. The Concepts of Operations also provide a framework
for developing formal policy and procedures and give FBI managers guidance
through broad principles for information sharing. The FBI is in the process
of developing an FBI-wide enterprise architecture. In conjunction with the
enterprise architecture, the FBI should develop a process map to define the
current state and end state for its information-sharing processes and an
implementation plan to put its Concepts of Operations into action. We
believe that such a structure is necessary to ensure that the FBI’s
dissemination efforts are consistent, meet the Director’s expectations, and
hold personnel accountable. Several managers told us that they had been
busy trying to improve the FBI’s intelligence capabilities and information
sharing, and that policies and procedures would have to come later.

       During the period of our audit, the process for disseminating
intelligence was ad hoc and communicated orally from manager to staff.
One CIA detailee characterized the informal process as disorganized, noting
that information does not flow smoothly within the FBI, let alone externally.
The detailee said it was a common occurrence to attend a meeting with
another agency and learn about FBI-developed intelligence for the first time.
As another example, the detailee noted that the CIA’s Counterterrorist
Center (CTC) produces 13,000 intelligence reports a year, all of which are
sent to the FBI. In the eight months the CIA detailee had been at the FBI,
the detailee had not received a single CIA intelligence report. The detailee
said, “Information goes into a black hole when it comes into this building.”

       This official attributed the FBI’s problems in disseminating information
within the FBI to two factors. First, the FBI does not have written policies or
procedures for disseminating intelligence. The lack of policies and
procedures may impede the effective dissemination of intelligence and
prevent FBI personnel from knowing what they can expect from different
components within the FBI. Second, the FBI’s information systems require a
person with a need for information to search the FBI’s databases to retrieve
it. In contrast, the CIA’s information systems “push” data to those whose
profile meets the criteria.

       The inability of intelligence agencies in general to disseminate
information consistently has been recognized by other reviews. Both the
Joint Inquiry that investigated the intelligence issues related to the
September 11 attacks and the Gilmore Commission noted that information




                                   - 20 -



                    REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


sharing in general is not systematic and needs more attention and
oversight.19 The Staff Director of the Joint Inquiry Staff has testified that:

       No one will ever know whether more extensive analytic efforts, fuller
       and more timely information sharing, or a greater focus on the
       connection between these events would have led to the unraveling of
       the September 11 plot. But, it is at least a possibility that increased
       analysis, sharing and focus would have drawn greater attention to the
       growing potential for a major terrorist attack in the United States
       involving the aviation industry. This could have generated a
       heightened state of alert regarding such attacks and prompted more
       aggressive investigation, intelligence gathering and general awareness
       based on the information our Government did possess prior to
       September 11, 2001.20

      When we inquired about the flow of intelligence within the FBI, the FBI
did not have a flow chart and had to prepare a narrative description of the
process to address our request. The creation of an enterprise architecture
and a process map would help the FBI better understand and manage its
information flow.21

      Enterprise architecture is the organization-wide blueprint that defines
an entity’s functions and systems, including IT systems. It provides a
comprehensive view – through models, narratives, and diagrams – of the
interrelationships of an organization’s operations and structures and how
these structures align with the organization’s mission.

      In a February 2002 review of enterprise architecture used in the
federal government, the GAO stated the following:22


       19
          See the Gilmore Commission’s (Advisory Panel to Assess Domestic Response
Capabilities for Terrorism Involving Weapons of Mass Destruction) second and fourth
reports, issued in December 2000 and December 2002.
       20
        The testimony was before the Senate Select Committee on Intelligence and the
House Permanent Select Committee on Intelligence on September 24, 2002.
       21
         A process map is a visual aid for picturing work processes and shows how inputs,
outputs, and tasks are linked.
       22
         The report is entitled “Information Technology: Enterprise Architecture Use Across
the Federal Government Can Be Improved” (GAO-02-6, February 19, 2003).

                                        - 21 -



                       REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


      The architecture describes the enterprise’s operations in both:
      1) logical terms, such as interrelated business processes and business
      rules, information needs and flows, and work locations and users; and
      2) technical terms, such as hardware, software, data, communications,
      and security attributes and performance standards. It provides these
      perspectives both for the enterprise’s current or “as is” environment
      and for its target or “to be” environment, as well as a transition plan
      for moving from the “as is” to the “to be” environment.

       In our December 2002 report entitled, “Federal Bureau of
Investigation’s Management of Information Technology Investments,” we
recommended that the FBI continue its efforts to establish a comprehensive
enterprise architecture. The FBI agreed with our recommendation and as of
April 2003 was still working on establishing the enterprise architecture.

       In September 2003 the GAO reported that the FBI does not yet have
an enterprise architecture.23 According to the GAO, the FBI acknowledges
the need for an enterprise architecture and has committed to developing one
in the fall of 2003. However, the FBI currently lacks the means for
effectively reaching this end. For example, the FBI does not have an agency
architecture policy, an architecture program management plan, or an
architecture program management plan.

        As discussed in Finding 2, the FBI has undertaken a number of
initiatives to improve its ability to share information both within the FBI and
externally. A major step forward is the recent development of Concepts of
Operations for the FBI’s core intelligence functions, including information
sharing. These plans establish goals, provide broad principles, and lay the
foundation for developing formal policies and operating procedures. Still, we
believe the FBI would be better positioned to manage the changes to its
information-sharing processes if it also conducted a process map for
information sharing. In its Business Process Reengineering Assessment
Guide, the GAO recommends that agencies complete such a map as part of
their reengineering efforts:

      Agencies need to develop a common understanding of the processes
      they use to produce their products and services before they can set
      about to improve them. Like large private sector organizations,

      23
          The report is entitled “Information Technology: FBI Needs an Enterprise
Architecture to Guide Its Modernization Activities” (GAO-03-959, September 25, 2003).

                                       - 22 -



                       REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      agencies can have a confusing web of interconnected processes and
      sub-processes, many of which cut across several functional
      departments. It is important to define what the components of each
      process are, as well as the process' boundaries, dependencies, and
      interconnections with other processes.

      As a start, the agency should map each of its core processes at a high
      level. High-level process mapping typically results in a graphic
      representation depicting the inputs, outputs, constraints,
      responsibilities, and interdependencies of the core processes. This
      high-level map provides managers and staff with a common
      understanding of how the processes work and how they are
      interconnected.

        The FBI has many ongoing initiatives that affect its counterterrorism
efforts. However, the FBI does not have a blueprint for either its current or
intended information-sharing process. The new Concepts of Operations,
while a worthwhile effort to delineate goals and provide guiding principles,
do not constitute a blueprint that defines the current state and an end state
for information sharing. In our judgment, such a blueprint or road map is
necessary to ensure that: 1) all the processes are managed well, 2) the
initiatives do not conflict or overlap, 3) each units’ information-sharing
responsibilities are clear to its personnel and other FBI personnel, and 4) the
FBI’s new IT systems meet the needs of those involved in the FBI’s
counterterrorism efforts.

Conclusions

       The ability of the FBI to share information across sections, units, and
offices within the FBI as well as with the intelligence community and state
and local law enforcement agencies is critical to the nation’s ability to
prevent future acts of terrorism. The FBI has identified, and is working to
correct, several of the major impediments to its ability to obtain, analyze,
and disseminate intelligence and other sensitive information. These
obstacles center on the need for IT improvements, a professional intelligence
capability, overcoming security issues and perceptions concerning the
sharing of information with state and local law enforcement agencies, and
the establishment of policies and procedures for managing the flow of
information. The recent development of Concepts of Operations for the key
aspects of the FBI’s intelligence program, including information sharing,



                                   - 23 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


contributes toward a framework for the necessary policies and procedures to
reinvent and institutionalize the program.

      The flow of intelligence and other useful information allows everyone
involved in combating terrorism to view the terrorist threat in a more
complete context. For the FBI to meet its information dissemination
responsibilities, it must continue to improve its analytical capabilities and its
IT systems. In addition, the FBI must develop information-sharing policies,
including the extent to which information can and should be disseminated to
state and local law enforcement agencies.

Recommendations

      We recommend that the Director of the FBI:

         1. Using the Concepts of Operations as a framework, establish a
            written policy on – and procedures for – information sharing,
            including what types of information should be shared with what
            parties under what circumstances.

         2. Ensure that the FBI-wide enterprise architecture currently under
            development is accompanied by a process map for information
            sharing that clearly defines the current state and an end for the
            information-sharing process so that the numerous information
            sharing initiatives can be coordinated and properly monitored
            and managed.




                                    - 24 -



                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


Finding 2: Improvements to Information Sharing

     Following the September 11, 2001, terrorist attacks on the
     United States, the FBI Director established as the FBI’s highest priority
     the prevention of future attacks. The Director realized that the FBI’s
     antiquated IT systems, weaknesses in intelligence analysis and
     dissemination, and the existing CTD organizational structure itself
     were adversely affecting the FBI’s ability to share intelligence and
     other information both internally and externally. In response to these
     recognized weaknesses, the FBI has taken, or is in the process of
     taking, various steps to more effectively share information within the
     FBI, with the intelligence community, and with state and local law
     enforcement authorities. Although many of the FBI’s efforts to
     improve information and intelligence sharing are ongoing, we found
     that progress is being made along several fronts: 1) modernizing the
     FBI’s IT systems, including a TS/SCI LAN, 2) establishing a
     professional intelligence capability, 3) reorganizing the CTD and
     establishing or expanding interagency task forces and other offices in
     part to allow for better information sharing both internally and
     externally, and 4) developing Concepts of Operations for improving the
     FBI’s intelligence program, including information sharing.

Information Technology

       As discussed in Finding 1, the FBI’s archaic information systems have
been the main impediment to the FBI’s intelligence-sharing efforts. The
majority of the FBI officials interviewed during our audit agreed that the
FBI’s limited and obsolete information systems, lack of compatibility with
systems used by the rest of the intelligence community, and the lack of
secure systems certified at the TS and SCI levels crippled intelligence
sharing within the FBI and to and from the intelligence community. All the
officials with whom we spoke expected that the IT improvements underway
will greatly improve the FBI’s ability to share intelligence and other
information. To manage the all-important IT modernization effort, the
Director hired seasoned IT professionals from outside the FBI.

      Trilogy is the overarching IT project designed to modernize the FBI’s
systems. Trilogy is intended to upgrade the FBI’s: 1) hardware and
software – referred to as the Information Presentation Component,
2) communication networks – referred to as the Transportation Network
Component, and 3) five most important investigations applications –

                                  - 25 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


referred to as the User Applications Component. In March 2003, the FBI
Director announced that the Trilogy wide area network deployment had been
completed. According to the FBI, the Trilogy network replaces the FBI’s
outdated local area and wide area networks. The Trilogy network will enable
new applications, such as the VCF, to replace the FBI’s obsolete ACS case
management system and lays the foundation for electronic information
sharing with other agencies. The VCF is part of the user applications
component of Trilogy. As described by the FBI, the VCF is the FBI’s first real
change in workflow and processes away from the legacy of paper and the
processes of the 1950s. The FBI expects the VCF, scheduled to come on line
in December 2003, to change the way agents and analysts perform their
duties and to provide a model for further consolidation of systems and data.
In addition to Trilogy and the VCF, the FBI is working on the development of
the Secure Counterterrorism Prototype Environment (SCOPE). FBI officials
told us that SCOPE will provide the FBI with data warehousing and data
mining capability.

      Subsequent to the September 11 attacks, the FBI focused on the need
to share information both internally and externally. Recognizing its
requirement for a secure system that is certified for processing TS/SCI level
material, the FBI began a TS/SCI LAN project in February 2002. The TS/SCI
LAN is not part of Trilogy, but the same wide area network supports both
systems. According to the project manager, the FBI analysts found that
given the paper-intensive aspect of the FBI’s intelligence operation and the
lack of a secure means of disseminating intelligence electronically, there was
no assurance that everyone who needed to see intelligence information
actually received it. The analysts also found that it was difficult to track
information. The TS/SCI information-sharing problem was reported to the
FBI Chief Information Officer at that time, a report was presented to the
Director, the project was approved, and a budget was authorized.

       The project manager told us that the TS/SCI LAN is a pilot project.
She explained that the TS/SCI LAN is an external system that interfaces with
the secure Joint Worldwide Intelligence Communications System (JWICS)
and other classified systems used by the intelligence community. Everyone
using the system can connect with the intelligence community and send
classified material back and forth through CT-Link and other secure systems
with e-mail capabilities. Access to other classified systems can be approved
as needed.




                                  - 26 -



                    REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


      The implementation of the TS/SCI LAN pilot was to be accomplished
through the deployment of [CLASSIFIED INFORMATION REDACTED]
terminals in three phases, to be completed in June 2003. The project
manager said the FBI met its June 2003 goal for completing the project.
After the LAN is successfully tested, the FBI plans to expand the pilot to the
New York and Washington field offices. The field office expansion will be a
separate project with a separate architecture. To conserve time and money,
the project managers decided to use an existing DOD system that was
already accredited and certified for TS/SCI.

       Phase I, for [CLASSIFIED INFORMATION REDACTED] users, mainly
intelligence analysts in the CTD, included engineering, design, development,
hardware and software procurement, installation, testing, preliminary
accreditation, and certification testing. Phase I was completed in December
2002. The TS/SCI LAN received interim authority to operate based on:
documenting a security plan, identifying an information systems security
officer, documenting the audit policy, and work on security risks as identified
by the FBI’s security staff. The system was certified and accredited at a
protection level 2.24 The level 2 certification and accreditation was
approved, although the system was tested at a protection level 3 and the
FBI is planning to eventually operate at level 3.

      During Phase II of the pilot project, another [CLASSIFIED
INFORMATION REDACTED] users were added in the CTD and in the
Counterintelligence Division, the user requirements were reviewed, a
Configuration Management Plan was developed, and the System Security
Plan was completed. An FBI official told us that the Security Plan is, and will
continue to be, a “living document” that will change with enhancements and
requests made for system adjustments. In March 2003, Phase II was
completed, and the FBI installed 21 more workstations than initially planned.
At the time of our audit in March 2003, a total of [CLASSIFIED
INFORMATION REDACTED] workstations were up and running, and the pilot
project was in its third and final phase. During this phase, the
implementation strategy calls for the installation of about [CLASSIFIED
INFORMATION REDACTED] more workstations mainly in the CTD and in the
Counterintelligence Division, for a total of at least [CLASSIFIED
INFORMATION REDACTED] workstations.


       24
          The National Security Agency (NSA) has established a 4-level protection rating,
with level 1 being the least secure.

                                         - 27 -



                       REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       The TS/SCI LAN pilot project is a critical step toward improving the
FBI’s information-sharing capability. At the time of our audit, the pilot
project appeared to be meeting its time and performance goals over the
approximately 18-month project period. However, we did not independently
assess the cost, schedule, and performance of the pilot project or determine
user satisfaction. Expanding the TS/SCI LAN to the FBI’s field offices will be
an ambitious and costly endeavor that should be closely monitored by FBI
management.

Intelligence Analysis and Dissemination

      The FBI has undertaken several initiatives to develop and
professionalize its intelligence operation and to improve information sharing
within the intelligence community. These methods include personnel
exchanges with other federal agencies, particularly the CIA, developing a
cadre of professional intelligence analysts and Reports Officers, and
establishing an Office of Intelligence independent of the CTD.25

       The exchange of personnel with the CIA is one of the primary means
by which the two agencies have attempted to improve their cooperation.
According to an FBI Assistant Director, the exchange of personnel has
brought to the FBI a highly qualified group of counterterrorism and
intelligence experts to share their expertise. As of March 2003, the following
CIA employees were detailed to the FBI: 4 managers, 25 analysts, and 30
full-time and 6 part-time officers to JTTFs throughout the country. In
commenting on a draft of this report in September 2003, FBI officials stated
that nearly all of the CIA personnel detailed to FBI headquarters have
returned to the CIA.

       The CIA is also represented on the National JTTF (NJTTF) in FBI
headquarters, allowing for the direct exchange of information among the
participating agencies. Before and after the 2001 terrorist attacks, CIA
mangers have served as Deputy Section Chiefs in the FBI, and FBI managers
have served as Deputy Directors of the CIA’s CTC. In May 2004, both the
CIA’s CTC and the FBI’s CTD are expected to co-locate to further facilitate
information sharing between the two agencies. Since May 1, 2003, CIA and
FBI representatives have also served together in the Terrorist Threat

       25
          In September 2003 the FBI announced that it would manage a multi-agency
Terrorist Screening Center that consolidates the various agency watch lists. The Center was
established on December 1, 2003, but was not yet fully functional.

                                        - 28 -



                       REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


Integration Center (TTIC). The CIA representatives at FBI headquarters and
at the JTTFs have access to classified CIA computer systems and
intelligence. However, as mentioned previously, at the time of our audit the
FBI’s systems did not allow for the dissemination of TS or SCI information,
nor was there any interface between FBI systems and the CIA’s classified
systems. Therefore, information is exchanged between FBI and CIA
representatives through conversation, exchange of written intelligence
products, and information taken from computer systems, cables, and other
documents. Also, the two agencies share information twice daily through
secure video teleconferences, which will be discussed in Finding 3 of this
report.

       The FBI is in the process of hiring analysts and Reports Officers for
headquarters and field offices and has developed or revised position
descriptions and established formal career paths to attract qualified
personnel. However, the entire intelligence community is competing for
qualified applicants. The FBI’s plans for analysts have been evolving since
completion of our audit work. According to the Counterterrorism Division
Administrative and Resource Unit, as of March 2003 the FBI planned to have
five types of positions involved in the FBI’s intelligence work:
1) Intelligence Specialists, 2) Operations Specialists, 3) Reports Officers,
4) Technical Information Specialists, and 5) Case Management Assistants.
At that time, the goal of the CTD was to hire a total of [CLASSIFIED
INFORMATION REDACTED] support personnel, including [CLASSIFIED
INFORMATION REDACTED] Intelligence Assistants, [CLASSIFIED
INFORMATION REDACTED] Intelligence Operations Specialists, and
[CLASSIFIED INFORMATION REDACTED] Intelligence Research Specialists,
among others. Existing Intelligence Research Specialists, who were in
grades GS-9 through GS-14, would be called Intelligence Specialists with
promotion potential increased up to GS–15. Personnel hired for this position
would be required to have college degrees. The former Intelligence
Operations Specialist position was to be divided into two new positions:
Operations Specialist and Reports Officer. These positions were to span
grades GS–9 through GS-14. GS-9/11/12 Technical Information Specialists
would be data miners who extract information from databases. The former
Investigations Assistants would be called Case Management Assistants at the
GS–6/7/8 level and would perform less complex searches and data
extraction based on leads from the field offices. The position descriptions
had been written for the GS-14 and GS-15 positions, and position
descriptions for the other grades were in the process of being written at the



                                  - 29 -



                   REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


time of our audit work. A table detailing the status of the hiring process as
of March 2003 can be found in Appendix 3.

       The FBI’s September 2003 Concept of Operations on “Human Talent
for Intelligence Production” – developed since the Office of Intelligence
assumed responsibility for the hiring, training, and promotion of analysts
and Reports Officers – modified the CTD’s approach to the hiring and career
path of the analysts. The plan for analysts encompasses three positions and
does not address the formerly-planned Technical Information Specialist and
Case Management Assistant positions. The three positions discussed in the
current plan are: Operations Specialists, Reports Officers, and Intelligence
Analysts. In commenting on a draft of this report, FBI officials stated that
the utilization of other supporting positions was being evaluated. Also, the
officials clarified that the Intelligence Analyst and Reports Officer positions
have full performance levels to GS-14, with competitive promotion to GS-15
possible in headquarters. The plan suggests the same grade structure for
the Operations Specialist position, which currently has a full performance
level of GS-14 at headquarters and GS-13 in the field offices. According to
the plan, analysts who do not currently have a college degree will be
encouraged to complete a 4-year degree program.

       According to the Chief of the CT Administration and Resources Unit,
hiring qualified people for the new Reports Officer positions has been very
difficult, despite 60 applicants for each vacancy, because the only analogous
position exists in the CIA. In order to hire the best possible personnel, the
FBI’s plan is to start from the bottom up and hire people at the lower grade
levels and train them as Reports Officers. The FBI is also exploring the use
of the Presidential Management Intern program to fill the positions. In
February 2003, the Chief estimated that it will take from 12 to 18 months to
fully staff the Terrorism Reports and Requirements Section. In addition, the
Chief stated that although the FBI has a deployment plan to locate Reports
Officers in the field offices as well as headquarters, a position description for
the field Reports Officer position had not yet been developed. The
deployment plan calls for locating four to five Reports Officers in the larger
field offices, such as New York and Washington, and one to two in the other
field offices.

      While the FBI has identified the types of analyst positions required to
enhance its intelligence analysis and reporting capabilities, established
career paths, and was in the process of writing position descriptions, the
actual hiring of the analysts has been problematic and slow. The reasons for

                                    - 30 -



                     REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


the lack of timely hiring center on identifying qualified applicants and doing
the required background investigations necessary for the appropriate
security clearances.26

       As of March 2003, the FBI was in the process of developing a training
program for the newly hired Reports Officers and analysts. The FBI was
considering the CIA’s model of selecting the analyst, providing formal
training, and then placing the person on the job. Training was to include a
2-week course at the FBI’s College of Analytical Studies and at least a
30-day assignment at FBI headquarters.27 At the time of our audit, the FBI
Training Division was working on a curriculum for analysts at the College of
Analytical Studies, which will offer introductory, intermediate, and advanced
courses. Some courses were already available – for example, a 1-day Arabic
course intended to familiarize analysts with Islamic culture. The planned
training includes bringing subject matter experts from the CIA to offer
training.

      In a further step to improve the FBI’s intelligence capabilities and
overall management, in April 2003 the Director named an National Security
Agency (NSA) executive as the Executive Assistant Director for Intelligence,
and an FBI Special Agent in Charge was promoted to Assistant Director of
the new Office of Intelligence (OI), which is now a separate office from the
CTD.

       During his March 4, 2003, testimony before the Senate Committee on
the Judiciary, the Director reported that the Executive Assistant Director for
Intelligence was first and foremost responsible for ensuring that the FBI had
the optimum strategies, structure, and policies in place to support the FBI’s
counterterrorism mission. The Director stated that the OI will cover all types
of intelligence activities including counterterrorism, counterintelligence,
criminal, and cyber and will be responsible for ensuring that the FBI is
sharing information with its federal, state, and local partners. Further, OI
was to be responsible for: 1) establishing and managing the careers and
career development of analysts and Reports Officers throughout the FBI,

       26
          In this audit we did not evaluate the adequacy of the number of analysts to be
hired, the qualifications of analysts already hired, or the deployment and utilization of the
analysts. The OIG plans to begin a separate audit of the hiring and training of the FBI’s
intelligence analysts in September 2003.
       27
            The FBI established the College of Analytical Studies in October 2001 in Quantico,
Virginia.

                                           - 31 -



                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


2) managing the FBI’s intelligence requirements process, and 3) establishing
and managing newly designated intelligence units composed of agents and
Reports Officers located in each of the FBI field offices. The Assistant
Director for Intelligence anticipated that the OI would task field office
intelligence units to develop collection strategies to meet the FBI’s
intelligence requirements. In addition, the Assistant Director for Intelligence
told us that the OI will have a Confidential Sources component to centralize
under a standard policy the development and use of all human sources
involving both criminal and terrorist activities.

       Analysts and Reports Officers are physically located in the CTD (and
certain other operating divisions and offices) and are under the operational
control of the division. The OI will exercise administrative control over the
analysts and Reports Officers and will manage their careers, including hiring,
training, promotion, and placement. FBI officials said they did not anticipate
any organizational friction over the split between operational and
administrative control of the analysts and the Reports Officers.

Reorganization of the Counterterrorism Division

        In part to improve counterterrorism operations and intelligence
analysis and in part to enhance the exchange of information, in June 2002
the FBI began reorganizing the CTD and expanding the number of sections
from two to nine. (See the CTD organizational chart of page 7 of this
report.) The nine sections are located among two operational branches and
one analysis branch under separate Deputy Assistant Directors. While the
reorganization of the CTD itself represents a desire to improve information
sharing, a number of sections and units began individual initiatives to
enhance information-sharing processes. Because the reorganization
illustrates one of the Director’s key efforts to improve the flow of information
both within the FBI and externally, a detailed description of each section and
its initiatives for sharing intelligence information follows.

      The Counterterrorism Operations Branch

      The Deputy Assistant Director for the Counterterrorism Operations
Branch manages the following five sections: 1) the Terrorist Financing
Operations Section (TFOS), 2) Domestic Terrorism Operations Section
(DTOS), 3) International Terrorism Operations Section I (ITOS I),
4) International Terrorism Operations Section II (ITOS II), and 5) Terrorism
Reports and Requirement Section (TRRS).

                                   - 32 -



                    REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED



      The TFOS is an operating section that supports the other CTD
operational sections by providing information on terrorist financing. This
section was formed in response to the need for a more comprehensive,
centralized approach to investigating terrorist financial matters. The TFOS
mission is to identify, investigate, prosecute, disrupt, and incrementally
dismantle all terrorist-related financial and fund-raising activities. The
section is composed of four units: Radical Fundamentalist Financial
Investigative Unit, Domestic WMD and Global Financial Investigations Unit,
Global Extremist Financial Investigations Unit, and Financial Intelligence
Analysis Unit.

       At the time of our audit, the TFOS was in the process of identifying
public, private, and government sources of information on terrorist
financing. TFOS documents stated that in its efforts to improve the sharing
of information within and outside the FBI, the TFOS was working on:
1) conducting a national and international outreach initiative to share
information on terrorist financing methods with the financial and law
enforcement communities, 2) developing capabilities to predict trends and
patterns associated with terrorist activities, and 3) contacting the financial
services industry in order to facilitate the exchange of knowledge and data
concerning potential terrorist financial activities. In addition, according to
TFOS managers, the section has established extensive liaison with key
federal agencies and with state and local law enforcement agencies. The
TFOS shares financing data and analyses with the intelligence community.
To improve its working relationship with the JTTFs, the TFOS was in the
process of identifying and training Terrorist Financing Coordinators to be
located within each JTTF.28 The coordinator is to ensure the consistent flow
of terrorist financing information to and from the JTTFs. Further, the
Financial Intelligence Analysis Unit of TFOS was acquiring project
management software for managing tasks and assigning accountability. The
Unit Chief stated that the software would help him manage and improve the
sharing of information related to terrorist financing and would be compatible
with the FBI’s new Trilogy system.

      The DTOS is one of the two sections remaining from the previous CTD
structure. Under the new CTD organization, the DTOS is composed of the
following four units:


      28
           The JTTFs will be discussed in more detail later in this section of the report.

                                            - 33 -



                          REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


   •   Domestic Terrorism Operations – is responsible for investigating all
       domestic terrorist cases (not foreign-based or foreign supported
       terrorists), from right wing anti-government and white supremacist
       groups to left wing animal rights and environmental extremists and
       others such as the Macheteros revolutionaries in Puerto Rico.

   •   WMD/Unconventional Threats Operations Unit – assesses terrorist
       threats involving WMD and performs related investigations.

   •   WMD/Unconventional Threat Countermeasures Unit – is responsible for
       providing training and policy guidance to other FBI offices and to state
       and local first responders.

   •   Special Events Unit – works with the U.S. Secret Service and the
       Federal Emergency Management Agency in coordinating security for
       special events.

       The FBI applies a broad definition of terrorism in the types of matters
covered by the DTOS. In addition to domestic terrorists who might seek to
create mass casualties to further their anti-government views, the DTOS
also monitors and investigates any criminal activities associated with animal
rights, environmental, and anti-abortion extremists, as well as by certain
social protestors. According to the Section Chief, the activities of these
types of social extremist groups have become more violent over the years.
The Section Chief cited as an example the Animal Liberation Front’s attacks
against animal testing laboratories to protest animal testing.

       To the extent that the FBI seeks to maximize its counterterrorism
resources to deal with radical Islamic fundamentalist terrorism, WMD, and
domestic groups or individuals that may seek mass casualties, we believe
that FBI management should consider the benefit of transferring
responsibility for criminal activity by social activists to the FBI’s Criminal
Investigative Division. Although the activities of such groups fall under the
FBI’s definition of domestic terrorism, a more focused definition may allow
the FBI to more effectively target its counterterrorism resources. In
commenting on a draft of this report, FBI officials disagreed that any part of
the DTOS investigative activities, including property crime, should be
considered for transfer to the Criminal Investigative Division. The officials
stated that the activities of radical groups and individuals fall within the
definition of domestic terrorism in Title 18, U.S.C. 2331(5). The officials
further commented that domestic radicals have caused economic harm, and

                                   - 34 -



                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


such groups use methods similar to international terrorists such as in the
areas of operational and communication security, fund raising, and money
transfers.

      To reduce manager’s span of control, in the summer of 2002 the
former ITOS was split into two separate operating sections. ITOS I was
assigned al-Qaeda and other Sunni-type terrorist groups. The section is
composed of the following three units: Regional/Extraterritorial, Continental
United States (CONUS) I, and CONUS II. The ITOS I Section Chief told us
that his section shares information with state and local law enforcement
authorities primarily through the JTTFs. The fact that all JTTF members hold
security clearances allows for the exchange of classified intelligence
information. The JTTFs in turn provide information to FBI headquarters; FBI
counterterrorism squads provide information on leads or investigations in
the form of Urgent Reports and/or the more formal and slower EC.
Information from the intelligence community arrives in the section
[CLASSIFIED INFORMATION REDACTED]. However, according to the Section
Chief, [CLASSIFIED INFORMATION REDACTED] from the intelligence
community were not necessarily distributed to those FBI employees who
needed the information. Pending IT improvements that may resolve the
problem, at the time of our audit ITOS I was setting up a system so that
when communications arrive at the FBI [CLASSIFIED INFORMATION
REDACTED] would ensure that the information was forwarded to the proper
FBI section.

     The ITOS II is responsible for operations dealing with terrorism groups
and State sponsors of terrorism other than Al-Qaeda and other Sunni
fundamentalists. ITOS II has the following three units.

  •   Global Operations Unit – [CLASSIFIED INFORMATION REDACTED].

  •   Iran/Hizballah Unit – [CLASSIFIED INFORMATION REDACTED].

  •   Middle East Operations Unit – [CLASSIFIED INFORMATION
      REDACTED].

      The ITOS II has a CIA manager serving as Deputy Section Chief, and
an FBI manager is detailed to the CIA’s CTC as a Deputy Director. According
to the Section Chief, this interagency exchange facilitates coordination with
the intelligence community at large. Not only does information sharing take
place face to face, but [CLASSIFIED INFORMATION REDACTED]. As with the

                                  - 35 -



                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


CIA, a DOD representative is also located at the ITOS II, and an FBI
employee is assigned to DOD. At the time of our audit, the FBI reported
[CLASSIFIED INFORMATION REDACTED].

      The ITOS II Section Chief told us that there are no restrictions on the
sharing of information with other agencies in the intelligence community. He
added that all parties recognize that some information is unique to an
agency and its mission and that sources and methods may be deleted from
the information.

      Because the FBI does not have a system that allows for electronic
review of all FBI documents, the ITOS II was experimenting with a
quasi-electronic review using the existing internal e-mail system. Under this
“work-around” system, a supervisor receives an e-mail with the document in
question as an attachment. If the supervisor wants to make a change,
he/she will be able to confirm that he/she has reviewed the document
through an e-mail. Legal documents, highly classified information, and
Foreign Intelligence Surveillance Act (FISA) related documents continue to
be reviewed only as hard copies.

       The TRRS is a new section designed to provide the FBI with an
intelligence collection, analysis, and reporting capability. Although not fully
staffed at the time of our audit, the section was led by an experienced CIA
manager. When fully staffed, it will be composed of the following five units:
Reports Policy and Asset Vetting Unit; Radical Fundamentalist Extremist
Collection, Evaluation, Dissemination Unit; Global Middle East Extremist
Collection, Evaluation, Dissemination Unit; WMD Unconventional Threat
Collection, Evaluation, Dissemination Unit; and Domestic Collection,
Evaluation, Dissemination Unit.

       The TRRS is working with the CTD headquarters sections, field offices,
Legal Attaches abroad, the intelligence community, and other customers to
identify and address intelligence requirements and gaps. At the time of our
review, the TRRS had produced and disseminated within the FBI and to
intelligence agencies numerous products, including about 350 Intelligence
Information Reports (IIRs). The IIRs will be further described and discussed
in Finding 3 of this report.

      The TRRS Section Chief is working on several initiatives to fully
develop the TRRS and its analysts and Reports Officers. For example, she
was developing a training plan for the Reports Officers, had written a

                                   - 36 -



                    REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


position description, was developing a proposal for a formal career path, and
planned to develop a policy manual to make the section a professional
intelligence reporting organization similar to the CIA’s reporting operation.

      The Operational Support Branch

      The Deputy Assistant Director of the Operational Support Branch
manages the CTD’s administrative and resource functions, FBI detailees to
other agencies, and the Foreign Terrorist Tracking Task Force, which is
discussed later in this section of the report. The branch also manages the
Counterterrorism Operational Response Section and the National Threat
Center Section.

       One main element of the Counterterrorism Operational Response
Section is the NJTTF.29 About 30 federal agencies are represented in the
NJTTF. Participants include the intelligence agencies, DOD, Internal
Revenue Service, DHS, and the Washington Metropolitan Police Department.
According to the FBI, NJTTF members have security clearances and receive
all intelligence and other information that their FBI counterparts receive. As
part of its efforts to improve information sharing with state and local law
enforcement, the FBI plans to establish a fellowship program to bring
officers from different states into the NJTTF so they can see first hand what
information is and is not available. The NJTTF also conducts special projects
to share the results with state and local law enforcement agencies, such as
determining: 1) the characteristics of “lone wolf” offenders, and 2) what can
be done to identify terrorist sleeper cells. The NJTTF is also responsible for
the “Gateway” or St. Louis pilot project, an effort to create a data warehouse
of FBI, state, and local investigative case information for access by the FBI
and participating state and local law enforcement agencies. Further details
on the “Gateway” project are in Appendix 4.

      After the September 11 terrorist attacks, the FBI established an
Executive Watch in the SIOC to allow FBI executives to receive updates and
information about terrorist events around the clock. Since then, a central
threat unit evolved, and the National Threat Center Section (NTCS) was
established in late 2002 and then reconfigured early in 2003 to include the:
1) Threat Monitoring Unit, 2) Terrorist Watch and Warning Unit, and


      29
         The other elements of the Counterterrorism Operational Response Section are the
Fly-Away Rapid Deployment Teams and the Military Liaison and Detainee Unit.

                                       - 37 -



                       REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


3) Counterterrorism Watch Unit (CT Watch). Although the NTCS has neither
an investigative nor an analytical role, the section performs limited initial
analysis to determine the validity of a threat and which operational unit
needs to be notified for investigation or other operational response. The
NTCS also provides input to the Director’s Briefing, including the Threat
Matrix. The Director’s Briefing and the Threat Matrix are discussed in
Finding 3 of this report.

        According to the Chief of the Threat Monitoring Unit, the unit was
initially known as the Threat Analysis Operations Group and, because all of
the September 11 attacks involved hijacked aircraft, the group tracked only
aviation threats. Eventually the group began collecting data on all threats.
Under the CTD reorganization, the Threat Analysis Operations Group became
the Threat Monitoring Unit with expanded responsibilities for threat
monitoring and information sharing. The Threat Monitoring Unit is neither
an operational unit nor an analytical unit, since the unit does not initiate
leads or have a role in prosecutions. An FBI official described it as a
“conduit.” The mission of the Threat Monitoring Unit is to ensure that
operational units within the FBI and agencies with counterterrorism
responsibilities outside of the FBI receive information on terrorist threats.
According to the Unit Chief, once information on a threat is passed to the
appropriate operational unit, the Threat Monitoring Unit continues to
communicate with the operational unit until the threat reaches one of four
outcomes: 1) mitigation, 2) determination the threat is not credible, 3) the
threat is investigated to the point where there are no more actionable leads,
or 4) the threatened event actually occurs.

     The Unit Chief told us that the Threat Monitoring Unit created a
database of all credible threats it had received since September 11, 2001.
The database includes a description of each threat and its resolution. As of
March 2003, the unit had chronicled about 2,500 threats in this database.
The system has key word search capability and [CLASSIFIED INFORMATION
REDACTED]. Currently, the database is only available within the FBI.
However, the Threat Monitoring Unit is planning to disseminate the data
[CLASSIFIED INFORMATION REDACTED].

      The Terrorist Watch and Warning Unit, established in March 2002, is
responsible for providing state and local law enforcement agencies with
warnings about terrorist threats and for maintaining the FBI’s Terrorist
Watch List in the National Crime Information Center (NCIC) system. The
unit also has input to the color-coded threat warning system managed by

                                  - 38 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


the DHS. To accomplish its mission of sharing FBI information with state
and local law enforcement agencies nationwide, the unit disseminates
weekly unclassified Intelligence Bulletins, Quarterly Threat Assessments, and
periodic National Law Enforcement Telecommunications System (NLETS)
messages to state and local law enforcement agencies on a “law
enforcement sensitive” basis. The information disseminated in these
products includes background on terrorist groups, their activities, and their
methods of operating. These products will be further described and
discussed in Finding 3 of this report.

      The Terrorist Watch and Warning Unit’s Terrorist Watch List
responsibilities entail placing names of terrorist suspects from the FBI’s
Violent Gang and Terrorist Offender File into the NCIC for access by law
enforcement officers who, through traffic stops or arrests, may encounter a
terrorist suspect. In addition to the name of the possible terrorist, the NCIC
entry includes guidance of what action the law enforcement officer should
take: detain the person, arrest the person, or call the local JTTF. As of
March 2003, there were approximately 5,000 names listed in the Terrorist
Offender section of the Violent Gang and Terrorist Offender File. Of those
5,000, about 2,500 are international terrorism suspects, about 1,300 are
detainees, and about 1,200 are domestic terrorism suspects. The list is
continuously updated.

       The CT Watch Unit receives and screens incoming threat information.
The staffing of CT Watch includes a watch commander, two watch officers,
two Intelligence Operations Specialists, two investigation research
specialists, one representative from the Threat Monitoring Unit, one
representative from the Terrorist Watch and Warning Unit, and two
supervisory special agents. The watch commander, watch officer, and
Intelligence Operations Specialist positions are staffed 24 hours a day,
7 days a week. All other positions are staffed 16 hours a day, 7 days a
week.

     According to the Chief of the CT Administrative and Resource Unit, the
NTCS assumed responsibility for both the SIOC staff and facility in
March 2003. The Chief of the NTCS had pointed out that although the SIOC
was not initially intended to be a counterterrorism operations center, roughly
95 percent of the events that have required the use of the SIOC facility have
been related to terrorism.




                                   - 39 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       In addition to each unit’s initiatives, the Chief of the NTCS told us that
he is in the process of writing a concept of operations that will outline a
system for the flow of information within the section. He said he also is
developing a protocol to scrub information on intelligence sources and
methods from the threats database to allow the information to be placed
[CLASSIFIED INFORMATION REDACTED] for dissemination outside of the
FBI.

      The Counterterrorism Analysis Branch

       The third branch in the current CTD organization is the
Counterterrorism Analysis Branch. The Deputy Assistant Director for
Counterterrorism Analysis manages the Counterterrorism Analysis Section
and the Communication Exploitation Section. The branch also includes a
Strategic Assessment and Analysis Unit, Production and Publications Unit,
and Presidential Support Group (subsequently transferred to the Office of
Intelligence).

      As with the TRRS, at the time of our audit the Counterterrorism
Analysis Section was in the process of being formed to help bring to the FBI
a more comprehensive and professional intelligence analysis capability. The
section was managed by an experienced CIA official on detail to the FBI and
had 25 CIA analysts on one-year details to support the CTD’s operational
sections, chiefly ITOS I, ITOS II, and DTOS. To permanently staff the
section, the FBI was in the process of recruiting analysts and providing them
with a career path. When fully staffed, the section is expected to have the
following five units: Domestic Sunni Extremist Unit, Shia/Middle East
Analysis Unit, Foreign Links/Global Targets Analysis Unit, Domestic
Terrorism Analysis Unit, and WMD and Emerging Weapons Analysis Unit.

     The Communication Exploitation Section was established [CLASSIFIED
INFORMATION REDACTED]. The section has four units: [CLASSIFIED
INFORMATION REDACTED].

      According to the Section Chief, [CLASSIFIED INFORMATION
REDACTED]. The Section Chief told us that any information gleaned is
immediately shared among three organizations: the CIA for Outside
Continental U.S. (OCONUS) leads on terrorists, the FBI for CONUS leads,
and the DOD for force protection.




                                    - 40 -



                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


      [CLASSIFIED INFORMATION REDACTED]. The Section Chief told us
that the FBI partners with [CLASSIFIED INFORMATION REDACTED].

      [CLASSIFIED INFORMATION REDACTED]. The Section Chief told us
that [CLASSIFIED INFORMATION REDACTED]. He added that any threat-
related information is then disseminated, [CLASSIFIED INFORMATION
REDACTED], to FBI units responsible for issuing warnings and taking
operational action. [CLASSIFIED INFORMATION REDACTED].

      At the time of our audit, [CLASSIFIED INFORMATION REDACTED] was
in the process of building the necessary infrastructure to better manage and
disseminate intelligence. The unit was responsible for setting up
[CLASSIFIED INFORMATION REDACTED]. The Section Chief told us that an
upcoming [CLASSIFIED INFORMATION REDACTED]. The system will allow
an FBI headquarters supervisor to track the progress of a field office in the
following areas: [CLASSIFIED INFORMATION REDACTED]? This initiative,
which affects eight FBI divisions, had been approved at the Executive
Assistant Director level and at the time of our audit was awaiting the
approval of the Deputy Director.

Task Forces

       As indicated previously in this report, the FBI has established several
types of task forces to aid its ability to perform its high-priority mission of
preventing terrorist attacks and to facilitate the sharing of information with
participating federal, state, and local agencies. In addition to the NJTTF
discussed earlier in this section of the report are the local and the regional
JTTFs and the Foreign Terrorist Tracking Task Force.

      The Joint Terrorism Task Forces

       To enhance its responsiveness to the terrorist threat and to provide for
direct sharing of intelligence and other information, the FBI has increased
the number of JTTFs from 36 in 2001 to 84 in 2003. In addition to FBI
personnel, JTTFs include state and local law enforcement officers and
representatives of various federal agencies. The JTTFs are supervised by
FBI Supervisory Special Agents and are locally managed by the Special
Agent in Charge or Assistant Directors in Charge of the respective field
office. The first formal JTTF was established in New York City in 1980.
The task forces vary in size from office to office and are structured in
relation to the terrorism threat dealt with by each office. Examples of

                                    - 41 -



                    REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


federal law agencies participating in the JTTFs on a part-time or a full-time
basis include the former Immigration and Naturalization Service (INS);
former Customs Service; U.S. Secret Service; Naval Criminal Investigative
Service; Bureau of Alcohol, Tobacco, and Firearms; U.S. Marshals Service;
and U.S. Department of State’s Diplomatic Security Service among others.30
The JTTFs generally have about 40 to 50 people assigned to them; however,
some, such as New York, have as many as 500 people. At the time of our
audit approximately 1,245 FBI agents, 650 state and local law enforcement
officers, and over 400 federal agency representatives served full-time in
JTTFs. Additional members participate in the JTTFs on a part-time basis. All
JTTFs (and FBI field offices) are responsible for investigations involving
international terrorism, domestic terrorism, WMD, and national infrastructure
protection.

      According to several FBI officials, JTTFs routinely share intelligence
and other information within the task force, the members of which all have
TS security clearances. State and local law enforcement agencies may pass
along information to their home agencies on a cleared and need-to-know
basis. However, as discussed in Finding 1, many higher-level state and local
law enforcement officials have not applied for security clearances and do not
have lawful access to the information available to the JTTF participants. The
information-sharing method varies from one JTTF to another, but is largely
informal and based on direct discussion or the exchange of hard copy
documents. Again, the FBI’s IT problems prevent the electronic
dissemination of classified information.

       The FBI is working on standardizing the mechanism for sharing
information with state and local law enforcement agencies through the
JTTFs. Any threat information developed by the JTTFs is to be
communicated directly to the CT Watch Unit in FBI headquarters. Some
local JTTFs have their own information-sharing initiatives. For example, the
Dallas and Houston JTTFs have begun a project to notify state and local law
enforcement agencies of terrorism threats through pagers with text
messaging capability.




      30
         A number of these agencies, including the INS, Customs Service, and Secret
Service are now part of the Department of Homeland Security.

                                       - 42 -



                       REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


       Foreign Terrorist Tracking Task Force

       On August 6, 2002, the Attorney General directed that the Foreign
Terrorist Tracking Task Force be formally consolidated with the FBI’s CTD.
The Foreign Terrorist Tracking Task Force operates under a Section Chief
within the CTD’s Operations Support Branch, who also has the title of task
force Director. Homeland Security Presidential Directive 2 states that the
mission of the task force is to: 1) deny entry into the United States of aliens
associated with, suspected of being engaged in, or supporting terrorist
activity; and 2) locate, detain, prosecute, or deport such aliens already
present in the United States. The Foreign Terrorist Tracking Task Force has
three units: 1) the Tracking and Detection Unit, 2) the Flight Training
Security Unit, and 3) the Alien Security Advisory Unit.

       Within the Foreign Terrorist Tracking Task Force, the Tracking and
Detection Unit has the core function of preventing and detecting the entry of
terrorists into the United States. The Tracking and Detection Unit’s primary
analytical process is to compare a list of known terrorists and supporters
with data sets of public and private providers. The Flight Training Security
Unit is responsible for implementing Section 113 of the Aviation and
Transportation Security Act.31 The Alien Security Advisory Unit largely
supports the former INS in implementing the National Security Entry Exit
Registration System, the Congressionally mandated system that requires
registration of certain males from certain countries between certain ages.
The main work of the task force is to compare aggregated data sets in an
attempt to identify and locate known terrorists or their supporters. To
accomplish this the task force uses the Department of State’s Tipoff system,
the Terrorist Offender portion of the NCIC, and I-94 data collected by the
from non-immigrant aliens.32




       31
         Section 113 directed the Attorney General to conduct background investigations
and assess the risk of aliens who want to train as pilots – and receive FAA certification – of
planes weighing over 12,500 pounds.
       32
          The I-94, or Arrival-Departure Record, shows the date a person arrived in the
United States and the “admitted until” date. An I-94 that has been approved by an
immigration agent serves as proof that the person arrived in the country legally and did not
overstay.

                                          - 43 -



                        REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


The Office of Law Enforcement Coordination

      In April 2002, the Director appointed a former Chief of Police as the
Director of the FBI’s Office of Law Enforcement Coordination (OLEC). The
OLEC was established to improve coordination and liaison between the FBI
and the federal, state, and local law enforcement communities. The goals of
the OLEC were to: 1) build partnerships with the law enforcement
community, 2) enhance the FBI’s customer service to the law enforcement
community, 3) ensure the administrative effectiveness of the OLEC team,
and 4) measure and evaluate performance. The OLEC’s strategic plan
included among its objectives: 1) provide general counterterrorism
guidance to state and local law enforcement, 2) help clarify the roles of
various law enforcement community members in the fight against terrorism,
3) promote information sharing in the law enforcement community through
Law Enforcement Online and other technologies, and 4) help state and local
law enforcement operationalize their response to the Homeland Security
Advisory System.

       According to OLEC documents, the OLEC provides advice and guidance
to FBI executives regarding the utilization of state and local law enforcement
expertise and resources in criminal, cyber, and counterterrorism
investigations, and recommends policies and programs to enhance the FBI’s
relationships with its state and local partners. The OLEC coordinates the
Director’s Law Enforcement Advisory Group and certain aspects of the FBI’s
intelligence and technology efforts with state and local law enforcement.
Additionally, the OLEC serves as the FBI’s primary point of contact for
national law enforcement organizations such as the International Association
of Chiefs of Police, the National Sheriffs Association, and the Fraternal Order
of Police. The OLEC is also responsible for liaison with the Department of
Justice’s Office of Justice Programs and Office of Community Oriented
Policing Services.

The Terrorist Threat Integration Center

      In January 2003, during his State of the Union Address, the President
announced an initiative to better protect the nation by continuing to close
the “seam” between the analysis of foreign and domestic intelligence on
terrorism. The President asked the Director of Central Intelligence (DCI)
and the Director of the FBI to work with the Attorney General and the
Secretaries of Homeland Security and Defense to develop the unified TTIC.
The purpose of the center is to merge and analyze terrorist-related

                                   - 44 -



                    REDACTED AND UNCLASSIFIED
                       REDACTED AND UNCLASSIFIED


information collected domestically and abroad in order to form the most
comprehensive possible threat picture. Although the center is not to engage
in information collection, it can establish requirements for the participating
agencies. Specifically, the center is to:

   •   optimize the use of terrorist threat related information, expertise, and
       capabilities to conduct threat analysis and inform collection strategies;

   •   create a structure that ensures information sharing across agency
       lines;

   •   define the criteria and standards for terrorist threat reporting;

   •   be responsible and accountable for providing terrorist threat
       assessments to national leadership;

   •   play a lead role in overseeing a national counterterrorism tasking and
       requirements system and for maintaining shared databases; and

   •   maintain an up-to-date database of known and suspected terrorists
       that will be accessible to federal and non-federal officials and entities,
       as appropriate.

      The TTIC was officially established on May 1, 2003, and is led by a
former Deputy Executive Director of the CIA. He was appointed by the DCI
in consultation with the FBI Director, the Attorney General, and the
Secretaries of Homeland Security and Defense, and he reports to the DCI.
The center began operating with 50 personnel from the Department of
State, DOD, DOJ/FBI, DHS, and other intelligence community agencies. The
TTIC was expected to have a staff of 150 by October 2003. The TTIC now
produces the Threat Matrix and, with FBI input, the Presidential Terrorism
Threat Report.

      According to the FBI Director, the TTIC will be crucially important to
the success of the FBI mission. He said that he views the center as an
important resource that will provide the FBI and other federal intelligence
and law enforcement entities with integrated analysis of information from all
sources, which can be quickly shared with state and local law enforcement.

      On May 1, 2004, the TTIC is expected to co-locate with elements of
the FBI’s CTD and the CIA’s CTC. The joint facility will accommodate

                                     - 45 -



                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


[CLASSIFIED INFORMATION REDACTED] TTIC personnel and [CLASSIFIED
INFORMATION REDACTED] employees from the CTC and CTD. In testimony
before the Senate Committee of the Judiciary on March 4, 2003, the FBI
Director stated that this co-location will:

   •   speed the creation of compatible information infrastructure with
       enhanced capabilities, expanded and more accessible databases, and
       greater [data] network sharing on counterterrorism issues;

   •   enhance interaction, information sharing, and synergy among U.S.
       officials involved in the war against terrorism;

   •   potentially allow for the FBI and the CIA to manage more effectively
       their counterterrorism resources by reducing overhead and redundant
       capabilities; and

   •   further enhance the ability of comprehensive, all source analysis to
       guide their collection strategies.

He further stated that the co-location will afford greater opportunity to the
FBI and the intelligence community to enhance the coordination of
operations against terrorist targets inside and outside the
United States.

Concepts of Operations

      In May 2003, Director Mueller appointed an Executive Assistant
Director for Intelligence. One of her first initiatives was an effort to
reevaluate how the FBI structures and conducts its intelligence operations.
This 10-week initiative produced Concepts of Operations that provide a
framework for improving each of nine core intelligence functions defined by
the FBI. The FBI’s Office of Intelligence, in cooperation with the FBI’s
headquarters’ divisions, created the plans. As of September 2003, four
Concepts of Operations had been approved and issued to the field offices,
and five of the plans were in draft. Five of the nine plans discuss
information sharing and intelligence dissemination, including one draft plan
specifically dealing with information sharing. The nine Concepts of
Operations are entitled:

   •   Community Support (draft as of August 2003)
   •   FBI Intelligence Assessment Process (final in August 2003)

                                   - 46 -



                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


  •   FBI Intelligence Requirements and Collection Management Process
      (final in August 2003)
  •   FBI Field Office Intelligence Operations (final in August 2003)
  •   Forecasting Intelligence Program Operational Requirements (draft as
      of August 2003)
  •   Human Talent for Intelligence Production (final in September 2003)
  •   Integrated Information Sharing (draft as of July 2003)
  •   Intelligence Production and Use (draft as of July 2003)
  •   Intelligence Program Budget Formulation Process (draft as of August
      2003).

      The FBI’s Concepts of Operations are a significant first step toward
revamping and institutionalizing the FBI’s intelligence processes by
establishing a vision for the various components of the intelligence program
and related information-sharing processes. The plans vary in their degree of
specificity, but all establish a basic framework. Additional work is required
to develop the procedures required to implement the plans. Also, the plans
are not yet incorporated into formal FBI policy. Other aspects to be
considered include an assessment of any budgetary implications to carrying
out the plans and the timeframes for accomplishing the overall end state of
the intelligence program reinvention process. We noted that some of the
plans include language that could be adopted into formal FBI policy manuals.
For example, the draft Integrated Information Sharing Plan lists the
following eight guiding principles that the FBI expects to apply to its
information sharing strategy.

  •   All FBI data is to be shared within the FBI, with very few exceptions.

  •   The ownership of FBI information is corporate; no individual division or
      employee “owns” FBI information.

  •   The FBI will have a single, integrated information space, in which the
      default will be to share with agencies with due consideration for the
      protection of sources and methods, and the security and prosecutive
      objectives of investigations.

  •   The FBI will not filter information internally but instead will create an
      overarching FBI-wide policy that balances the need for cross-
      correlation with the risks of misuse.




                                    - 47 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


  •   The view of what the FBI collects and what the FBI creates will look
      very similar.

  •   All data collected must also be recorded, searchable, retrievable, and
      easily cross-correlated.

  •   FBI employees will have the ability to conduct federated queries across
      multiple systems to identify relationships.

  •   Technology will be in service of people instead of people in service of
      technology. The FBI must have interconnectivity with Intelligence
      Community systems. Additionally, the FBI must leverage existing
      technologies instead of rebuilding them.

The information sharing plan recognizes the need for the development of an
associated policy, as follows:

       The OI will be the primary author of high-level information sharing
       policy for the FBI. Intelligence capability is the ability to transform
       raw data into actionable information. For this reason, the OI has a
       policy level interest in the accessibility of raw data as well as finished
       intelligence products. It is the intention of the OI to produce and
       update this policy with the input and participation of all relevant
       headquarters and field divisions. These include not only the
       operational divisions but much of the “support” infrastructure as well.

Conclusions

       In recognition of its longstanding weaknesses and to accomplish its
highest priority of preventing future terrorist attacks, the FBI has begun a
number of initiatives that, in time, should improve its ability to share
intelligence and other sensitive information both within the FBI and
externally. To solve its problem with processing and sharing information
classified above the Secret level, the FBI is implementing a TS/SCI LAN pilot
program in addition to the Trilogy project and its VCF and SCOPE
components. Because of the importance and difficulty of these FBI IT
projects, we believe they require continued close monitoring by FBI
management, including the expansion of the TS/SCI LAN to the FBI’s field
offices.




                                   - 48 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       In addition, the FBI is working to improve its relationship with other
members of the intelligence and law enforcement communities. To
accomplish this, the FBI exchanged personnel with the CIA, DOD, and other
federal agencies and is working closely with other agencies in the NJTTF, the
JTTFs, and the TTIC. Still, differences in organizational cultures and
operating methods may continue to impede the free flow of information, at
least in the short term. The FBI Director’s emphasis on information sharing
and interagency cooperation should, over time, help break down the barriers
between the FBI and other agencies that in the past have prevented a more
seamless counterterrorism effort. To improve its relationship with state and
local law enforcement, the FBI established the Office of Law Enforcement
Coordination and has developed law enforcement sensitive products, which
are discussed in Finding 3. These attempts to reach out to state and local
law enforcement officials have been helpful but have not remedied concerns
of some officials that the FBI too often withholds information. The FBI’s plan
to have state and local law enforcement representatives rotate into the
NJTTF may help state and local law enforcement officials better understand
the limited nature of intelligence on terrorist groups and activities.

       A major effort is underway to hire and train Reports Officers,
Intelligence Analysts, and Operations Specialists. To attract and retain the
highest qualified individuals, the FBI has rewritten position descriptions,
established career paths, and at the time of our audit was in the process of
developing a training plan. However, progress has been slow in hiring
qualified analysts. The OIG plans to conduct a separate audit of the hiring
and training of FBI analysts beginning in September 2003.

       In less than a year, the FBI has expanded the CTD from two to nine
sections. New sections were created for terrorism financial review, terrorism
reporting, counterterrorism analysis, and communications analysis. The
FBI’s greater organizational emphasis on counterterrorism is an appropriate
step toward the goal of transforming the FBI into an agency that can prevent
terrorism as well as investigate terrorist acts after the fact. The FBI’s new
organizational structure should also facilitate information sharing through
units established for that purpose. FBI management should monitor the
operating relationship between the CTD and the newly-created Office of
Intelligence to ensure coordinated action and adequate support of the CTD’s
mission on the one hand and proper training and utilization of analysts on
the other hand. Also, the CTD’s Domestic Terrorism Operations Section
should focus on threats involving weapons of mass destruction and
preventing domestic terrorist attacks aimed at creating mass casualties or

                                  - 49 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


damaging critical infrastructure. We believe that the FBI should consider
assigning other investigations involving, for example, social protests and
property crimes committed by environmental, animal rights, and other
radical groups and individuals to the FBI’s Criminal Investigative Division.

      The recent development of FBI-wide Concepts of Operations to
improve the overall intelligence function in the FBI is a good and necessary
beginning toward establishing guidance and laying the foundation for formal
policy and procedures on information sharing. The plans provide broad
guiding principles for information sharing and collectively can serve as a
springboard for reinventing the FBI’s intelligence program.

Recommendations

      We recommend that the Director of the FBI:

         3. Consider transferring responsibility for investigating crimes
            committed by environmental, animal rights, and other domestic
            radical groups or individuals from the Counterterrorism Division
            to the Criminal Investigative Division, except where a domestic
            group or individual uses or seeks to use explosives or weapons
            of mass destruction to cause mass casualties.

         4. For each Concept of Operations, develop an implementation plan
            that includes a budget along with a time schedule detailing each
            step and identifying the responsible FBI official.




                                   - 50 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


FINDING 3: Dissemination of Intelligence and Information

            The FBI has established nine primary methods of
     disseminating intelligence and other information, either
     within the FBI or to the intelligence and state and local law
     enforcement communities. Our analysis showed that the
     four most informative and detailed methods were those
     that disseminated highly classified information: the
     Director’s Briefing (since replaced by the more general
     Director’s Daily Report), Intelligence Information Reports,
     intelligence assessments or estimates, and twice daily
     secure teleconferences. However, distribution of the
     intelligence products was limited to FBI components and
     certain federal agencies. Internally, the Director instituted
     the concept of Urgent Reports, which enable FBI field
     offices to convey information in memorandum format
     directly to senior FBI management. The content of the
     Urgent Reports was not limited to counterterrorism, and
     the urgency of the reports was sometimes questionable.
     The four methods of communicating with state and local
     law enforcement agencies – Intelligence Bulletins,
     Quarterly Terrorist Threat Assessments, NLETS messages,
     and Terrorist Watch List submissions to the NCIC database
     – disseminate information on a law enforcement sensitive
     basis. While much of the unclassified information provides
     state and local law enforcement agencies with useful
     background and awareness, the information typically is not
     actionable nor does it necessarily focus on the high risks
     associated with radical Islamic fundamentalist terrorism.
     The reality is that specific, actionable information is often
     unavailable to the FBI. Still, to the extent that classified
     information may aid the preparedness efforts of state and
     local jurisdictions, the FBI should continue to encourage
     state and local officials to apply for security clearances,
     and to the extent possible, provide classified information to
     cleared state and local officials who have a need to know.

Director’s Briefing and Report

      At the time of our field work, the FBI Director received each morning a
detailed Top Secret Director’s Briefing consisting of four or five sections:

                                  - 51 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


1) Threat Matrix; 2) Operational Highlights; 3) Counterterrorism Update; 4)
Summary of Significant Intelligence; and 5) FISA. However, in responding
to a draft of this report in September 2003, FBI officials informed us that the
Director’s Briefing has been replaced by a Director’s Daily Report, which
eliminates all elements of the former Director’s Briefing except the Threat
Matrix. As described to us, the Daily Report no longer has a sole focus on
counterterrorism. FBI officials described the Daily Report as an FBI-wide
summary of significant information arranged by the Director’s priorities,
including criminal, cyber, and counterintelligence items.

       We did not review the new Daily Reports because the FBI initiated the
reports after the completion of our audit work. However, during our audit
we reviewed Director’s Briefings between February 27, 2003, and March 13,
2003. The Director’s Briefing was a fluid document that varies according to
the Counterterrorism Division’s need to inform the Director about sensitive
intelligence, and the Director’s desire to be kept informed about FBI
counterterrorism operations. As an intelligence product, the Director’s
Briefing demonstrates the FBI’s ability to cull intelligence reporting and
disseminate only the most important intelligence to its leadership. Because
much of the information included in the Director’s Briefing is extremely
sensitive – Top Secret, SCI, or “eyes only” – the information was not
disseminated to the FBI’s field offices, partly because the FBI did not have
the ability to electronically transmit Top Secret information either within
headquarters or to its field offices. Further, most field offices do not have
approved facilities to store SCI materials.

      Threat Matrix

      The Threat Matrix was a joint CIA-FBI product compiled by the CIA.
After our audit work was completed, the Threat Matrix was compiled by the
TTIC. The matrix summarizes significant reporting from the intelligence
community concerning new or updated terrorist threats over the previous
24 hours. A separate threat report summarizing the most important
information provided on the matrix is given to the President. The matrix
includes a preliminary assessment of each intelligence item and a summary
of the actions taken in response. For each item or threat, the following
information is included: source, target, alleged group, type of threat,
description and analysis, and action taken. Some copies of the Threat Matrix
contained handwritten notes indicating referrals to FBI offices. We noted
that the Threat Matrix has improved since our previous audit of the FBI’s
counterterrorism program in September 2002. For example, the matrix now

                                   - 52 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


contains more analysis of the credibility of a given threat, its relationship to
other threats, and the terrorist organization’s capability to carry out the
threat.

      The threats listed in the matrices we reviewed dealt almost exclusively
with international terrorism. For the 16-day period we reviewed, the
number of threats included in each matrix varied from 2 to 19, and averaged
about 11. The entries on the matrix were derived from a number of sources
and methods. As a result, some entries do not constitute threats as much
as they represent significant reporting from intelligence agencies.
[CLASSIFIED INFORMATION REDACTED]. Multiple reports about the same
threat were combined, and all sources of information were listed.

      For the period we reviewed, nearly 80 percent of the threats dealt with
U.S. interests abroad. Of the U.S. interests abroad, [CLASSIFIED
INFORMATION REDACTED]. Another 10 percent of the entries dealt with
targets in the continental United States. Because of the small sample size,
the most often targeted facilities can only be categorized as critical
infrastructure, [CLASSIFIED INFORMATION REDACTED]. For the remaining
10 percent of the entries, the threat did not indicate a specific target. The
threat may have been generalized, [CLASSIFIED INFORMATION REDACTED].

      Operational Highlights

       The Operational Highlights section was organized according to
investigative subject areas – international terrorism, domestic terrorism and
WMD – and chronicled major developments in the FBI’s casework. The most
complete entries were divided into three subheadings: current situation,
background, and investigative plan. A few entries contained only the current
situation.

      The international terrorism investigations portion of the Operational
Highlights covered such items as [CLASSIFIED INFORMATION REDACTED].

       The domestic terrorism investigations portion of the Operational
Highlights covered such items as violations of the Freedom of Access to
Clinic Entrances Act and the use of explosives.

     Typical of the investigations discussed in the WMD portion of the
Operational Highlights were threats of anthrax attacks, suspicious powder



                                    - 53 -



                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


leaking from envelopes, and substances missing or stolen from a university
laboratory.

     Counterterrorism Update

      The Counterterrorism Update section was not always included in the
Director’s Briefing. When the section is included, it covers new issues,
updates, and resolved issues. The update essentially mirrors the
Operational Highlights section.

     Intelligence Summary

      The Intelligence Summary contained significant intelligence community
reporting [CLASSIFIED INFORMATION REDACTED]. The summary included a
short narrative description of an intelligence item, followed by supporting
documentation or analysis. The supporting documentation was typically a
printout [CLASSIFIED INFORMATION REDACTED].

     In general, the SCI-level Intelligence Summaries updated the Director
on what the FBI knows through intelligence community reporting
[CLASSIFIED INFORMATION REDACTED].

     Foreign Intelligence Surveillance Act

      The FISA portion of the Director’s Briefing contained an
SCI-level summary regarding surveillance on terrorist suspects.

Intelligence Information Reports

       The FBI’s Terrorism Reports and Requirements Section of the
Counterterrorism Division prepares IIRs to disseminate to the appropriate
FBI offices, intelligence agencies, and other federal agencies. The IIRs
contain specific intelligence that may be actionable or useful in analyzing
terrorist activities and “connecting the dots.” We reviewed a judgmental
sample of 22 Secret level IIRs issued between March 3, 2003, and March 26,
2003. The reports varied in length from 3 to 14 pages, with generally one
page listing recipients and one page providing a point of contact and
administrative information. The reports state the subject and characterize
the credibility of the source. The reports were issued in the form of
classified cables.



                                 - 54 -



                   REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


       Although dissemination of the reports varied by content, standard
recipients included the intelligence community, certain military components,
the White House, and the State Department. FBI dissemination always
included the Director, but varied by topic, with some reports provided to
specific field offices and Legal Attachés and other reports disseminated to all
field offices.

       Nearly all of the sampled IIRs related to international terrorists or
terrorist activities. A few reports related to [CLASSIFIED INFORMATION
REDACTED]. One report seemed to have a criminal focus, but it alluded to
an unsubstantiated threat to the President. The information in the reports
seemed to be as detailed as possible and would provide recipients with
potentially useful information for follow-up or operational action. The
reports are not analyzed intelligence or necessarily validated, and this fact is
made clear in the reports. The IIRs are not broad threat assessments,
intelligence estimates, or finished intelligence products. Rather, the IIRs
disseminate specific intelligence to parties that need to know and may need
to act quickly on the information. Also, in some cases the FBI is requesting
recipients to determine if they have additional information on the topic that
can be provided to the FBI.

      We conclude that the IIRs are a good means by which the FBI is
disseminating specific intelligence. However, the distribution of the reports
is necessarily limited to those with appropriate security clearances and a
need to know. Consequently the information contained in the IIRs generally
would not be disseminated to state and local law enforcement agencies
except through a JTTF or unless modified for distribution on a law
enforcement sensitive basis.

Intelligence Assessments

       The FBI has begun to produce formal, strategic or long-range
intelligence assessments in addition to the shorter and more tactical IIRs.
We reviewed one major intelligence assessment, or estimate, entitled “The
Terrorist Threat to the U.S. Homeland: An FBI Assessment”, which also is
available in an unclassified law enforcement sensitive version, dated January
2003.33 The Secret/SCI version is a 65-page document, compared to 27
      33
          The assessment fulfilled the recommendation in our September 2002 audit report,
02-38, entitled “Review of the Federal Bureau of Investigation’s Counterterrorism Program:
Threat Assessment, Strategic Planning, and Resource Management” that the FBI complete a
national-level threat assessment.

                                        - 55 -



                       REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


pages in the unclassified version, that provides a detailed national threat
assessment and addresses the likelihood of terrorist attack as well as
methods, targets, casualties, and sources. The assessment begins with a
three-page “Key Judgments” section, followed by detailed analyses including
risk tables (for example, a “Threat and Vulnerability Matrix”) and
descriptions of terrorist groups and their intentions and capabilities. The
assessment describes risks in categories of high, medium, and low. The
assessment discusses WMD, but not in great detail. The FBI plans to issue a
separate report on the chemical and biological agents most likely to be used
in a terrorist attack.

Secure Video Teleconferencing System

       Twice daily, FBI CTD officials confer with their counterparts in the
intelligence community and with other federal agencies through the Secure
Video Teleconferencing System (SVTS). Following the attacks of September
11, the FBI and the CIA started the SVTS sessions to discuss the threats of
the day. Initially, the Threat Monitoring Unit represented the FBI at the
SVTS, but that responsibility has now transferred to the CT Watch Unit.
Participation in the SVTS varies by the nature of the threat being discussed,
although from 8 to 15 agencies typically participate. Participating agencies
have included: the Department of Justice, FBI, CIA, DHS, Department of
Energy, DOD, NSA, Department of State, Federal Aviation Administration,
Transportation Security Administration, Coast Guard, Customs Service,
Secret Service, and the Postal Service. An FBI official told us that during the
SVTS, the agencies discuss unusual or suspicious events that have happened
during the past day and examine the events for any nexus to terrorist
activity. He stated as an hypothetical example a drunk airline passenger
who assaults a flight attendant. Because causing a disruption on an airplane
could be a part of an attempt to take over the airplane, the incident would
be discussed during the SVTS to determine whether or not there is a
terrorist nexus. If the group determined that the incident was related to
terrorism, the representatives would be assigned tasks for the investigation
or the operational response. The status of the threat is then discussed at
subsequent SVTS. In the cited example, however, the assault is not likely to
be linked to terrorism, so the issue would not be discussed in subsequent
SVTS unless some terrorism connection was discovered.

      Although we did not observe any of the sessions, FBI officials
explained that the regularly scheduled video conferences were a useful tool
for sharing intelligence and other information with other agencies on a

                                   - 56 -



                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


real-time basis. We concur that secure video conferencing is a useful
method for direct and timely discussion and exchange of information on
potential terrorist activities and resulting counterterrorism actions.

Urgent Reports

       After the September 11 terrorist attacks, the Director instituted the
concept of Urgent Reports, which allow field offices to provide information
directly to senior FBI managers in e-mail format with a formal EC to follow.
The written report is often preceded by a telephoned report to FBI
headquarters. We reviewed a sample of 42 Urgent Reports issued during
March 2003. The FBI received between 1 and 9 reports daily for the period
we reviewed. The reports, which averaged one to two pages in length,
covered a variety of topics, ranging from criminal investigations to terrorism
cases. The Urgent Reports are addressed to the Director, with copies to the
Deputy Director and to the FBI’s Counterterrorism Watch Unit. Additional
recipients vary depending on the topic. Also, the Counterterrorism Watch
Unit may distribute the Urgent Report further based on its judgment of what
FBI units might need to be aware of the information.

      Our analysis of the 42 sampled Urgent Reports found that relatively
few were directly related to specific threats of [CLASSIFIED INFORMATION
REDACTED] terrorism but instead covered a wide variety of mostly criminal
matters. Also, many did not appear to be urgent matters that needed to be
brought to the Director’s immediate attention. Of 11 reports with an actual
or suspected international terrorism connection (26 percent of the total we
reviewed), 6 reports discussed 2 al-Qaeda members, 1 reported on the
sentencing of Hizballah members, 1 covered a suspected casing incident, 2
dealt with threats over the internet (including a threat to the White House),
and 1 was about an incident at a water facility that was found not to be
terrorism-related. Overall, the 42 Urgent Reports covered:

   •   nine bomb threats;

   •   five airport screening incidents and one update;

   •   two unruly airline passengers, one hijack threat;

   •   four burglary, robbery, theft, or extortion cases and one update;

   •   one missing juvenile, one recovered juvenile;

                                   - 57 -



                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



  •   two gang activity cases;

  •   one voter fraud and one indictment of a former public official;

  •   one local police department news;

  •   one arrest of a former FBI agent;

  •   one trespassing case with a terrorism concern;

  •   one paperwork discrepancy involving biological material;

  •   one threat to use chemical materials;

  •   one threat involving potential terrorist surveillance of targets;

  •   one report on sentencing of Hizballah members; and

  •   two al-Qaeda investigations and four follow-ups.

Intelligence Bulletins

       FBI Intelligence Bulletins are prepared by the Terrorist Watch and
Warning Unit under the National Threat Center Section. The Bulletins are
issued weekly to some 18,000 law enforcement agencies nationwide to
provide information on selected topics from FBI counterterrorism
investigations and analyses. The Unit Chief estimated that roughly one-third
of the information contained in the Intelligence Bulletins was formerly
classified but revised into a law enforcement sensitive version. The
Bulletins, which average between one and two pages in length, do not
provided threat assessments other than citing the national color-coded
threat level. Threat assessments are issued quarterly in a separate
document (discussed below), and any immediate threat information is
conveyed through the NLETS or by direct contact with state and local law
enforcement officials. Intelligence Bulletins (and other law enforcement
sensitive information) are disseminated to state and local law enforcement




                                   - 58 -



                    REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


authorities through NLETS, LEO, the Regional Information-Sharing System,
and facsimile.34

       We reviewed a sample of 15 weekly Intelligence Bulletins issued
between December 2002 and March 2003. The Intelligence Bulletins vary in
their relevance to the threat of international terrorism and in their specificity
of guidance to law enforcement agencies. The Bulletins usually request that
suspicious activities be reported to the local JTTF even if such activities are
criminal or protest-oriented rather than radical Islamic fundamentalist
terrorism. Of the 15 Bulletins we reviewed, 6 gave concrete and actionable
guidance on terrorism and 3 provided general information or called for
vigilance. Six Bulletins were not related to the high-risk presented by
international terrorists. It should be noted that Intelligence Bulletins not
related to international terrorism may still provide information desired by
state and local law enforcement, such as the tactics of social protesters.

       In our opinion, the Bulletins are a worthwhile attempt to provide
general information and guidance to state and local law enforcement
agencies. However, the Bulletins are somewhat “hit and miss” in terms of
providing guidance on what specific actions to take or what terrorist
characteristics to be aware of. The declassification of information for release
through the Bulletins necessarily reduces the specificity of the information.
Further, the Bulletins are not “alerts” that advise law enforcement agencies
to take particular actions; instead the Bulletins are more an effort to inform
and provide awareness should law enforcement personnel encounter a
situation mentioned in a Bulletin. According to FBI officials, the FBI must
limit the types of information that can be shared widely with the greater law
enforcement community because such information frequently finds its way to
the news media. As discussed in Finding 1 of this report, among the
difficulties in sharing intelligence with state and local officials are, in addition
to IT limitations, the following: 1) lack of appropriate security clearances by
would-be recipients; 2) non-FBI originator control over intelligence, including
the need to protect sensitive sources and methods of collection; 3) lack of a
secure means of transmitting classified information; and 4) lack of approved
secure storage capability. Additionally, FBI officials point out that there is
seldom direct intelligence on a threat against a specific target, but that if
such a threat were identified the state and local authorities would be notified

       34
           The Regional Information-Sharing System is composed of six regional centers that
share intelligence and coordinate efforts against criminal networks that operate across
jurisdictional lines.

                                        - 59 -



                       REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


immediately regardless of whether the information was classified. However,
FBI officials stress that more sensitive, classified information is available to
state and local law enforcement representatives who serve with FBI agents
on JTTFs and have Top Secret security clearances.

      Two contrasting examples of Intelligence Bulletins appear in
Appendices 5 and 6: one that, in our opinion, provides useful information to
state and local law enforcement agencies on international terrorism issues
and one that does not.

Quarterly Terrorist Threat Assessments35

       The Quarterly Terrorist Threat Assessments, prepared by the Terrorist
Watch and Warning Unit under the FBI’s National Threat Center Section, are
issued to law enforcement agencies nationwide. The purpose of the reports,
which range in length from 19 to 28 pages including a 3-page Appendix, is
stated in the September-December 2002 report: “a strategic overview of the
current terrorist threat against the United States, a general description of
civil disturbance threats and protester tactics, and a global antipathy report.”
We reviewed five Quarterly Terrorist Threat Assessments dated September-
December 2002 (two reports), March 2003 (two reports), and April 2003
(one report) to evaluate the content and the potential of the information to
state and local law enforcement agencies.

       The September-December 2002 report format is a series of bullets
under the following headings: Terrorism Threat (including a subheading
entitled WMD), Civil Disturbance (subheadings Potential Protest Practices &
Tactics, Protest Organization, Improvised Body Armor and Shields, Stink
Bombs and Pyrotechnics, False Identification & Impersonation, Surveillance
of Law Enforcement, Targeting of Law Enforcement, Assessment Summary),
Antipathy Report (subheadings Africa, Americas, Asia, Europe & Western
Asia, Middle East), and Transnational Issues. An Appendix section covers
scope, dissemination restrictions, and methodology.

     The reports for February-March 2003, updated March 2003, and April
2003 reports are narrative in format with the following content: Strategic
Overview, Terrorist Threat (subheadings for International Terrorism,


      35
           The exact title of this document varied somewhat, but the most commonly used
title was the Quarterly Terrorist Threat Assessment.

                                        - 60 -



                       REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


Activities and Targeting, Domestic Terrorism, Activities and Targeting, Civil
Disturbance, WMD, and Assessment Summary).

      The Quarterly Terrorist Threat Assessments are “rolling” assessments
in that much of the information is repeated from report to report with some
new information added to the new quarterly report. The interim reports
within a quarter are nearly identical except for any changes to the national
threat level changing. Much of the information provided to state and local
law enforcement agencies through the assessments could be described as
general awareness, and much of the information on al-Qaeda provides a
good background on the methods employed by such terrorist organizations.
In some cases law enforcement is provided with information that could be
actionable at the initiative of the law enforcement agency, such as looking
into security at general aviation airports or perhaps asking scuba trainers or
equipment providers about suspicious clients. However, the assessments do
not make such direct suggestions to law enforcement agencies about specific
steps that should be taken to either thwart or investigate potential terrorists
or what local JTTFs might already be investigating. Further, although the
reports assess the general threat, they do not provide law enforcement with
an assessment of risk in terms of what scenarios may be more likely or of
greater probability of occurring and what counterterrorism activities would
be recommended.

      The five reports we reviewed covered various topics on international
terrorism (as well as domestic terrorism and protestor activities). For
example, the reports discuss al-Qaeda’s operational methods and
capabilities and warn of terrorists’ interest in using small aircraft for suicide
attacks and developing scuba capability. The reports also state
al-Qaeda’s focus on returning to previous targets that were unsuccessfully
attacked, which could signal a threat to any remaining September 11 targets
such as the White House.

E-Mail Messages

      The FBI periodically sends e-mail messages of one to three pages in
length to other federal, state, and local law enforcement agencies using the
NLETS. We reviewed a sample of 11 NLETS messages issued by the FBI’s
CTD between September 11, 2001, and March 21, 2003, to determine the
content and evaluate the usefulness of the information to state and local law
enforcement agencies. The NLETS messages varied in their relevance to the
threat of international terrorism and in their specificity of guidance to law

                                    - 61 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


enforcement agencies. The messages usually requested that suspicious
activities be reported to the local JTTF, the nearest field office, or FBI
headquarters. Of the 11 messages reviewed, 5 were “Be On The Lookout
For” (BOLO) alerts for specific individuals. Of the five BOLO alerts, three
were for individuals considered armed and dangerous who possibly
presented a terrorist threat to the United States. Another BOLO message
stated that although the FBI had no specific information connecting the
named individuals to terrorism, they were being sought for questioning. The
remaining BOLO canceled a previous alert. Of the remaining six NLETS
messages, three concerned changes in the national threat advisory level
between “significant risk of terrorist attacks” (yellow) and “high risk of
terrorist attacks” (orange) and general information on why the threat level
was changed. For example, a September 2002 message cited the
establishment of al-Qaeda cells in Southeast Asia, the preparation of suicide
bombers for attacks against U.S. interests, and the possibility of al-Qaeda
operatives using the September 11 anniversary to launch attacks. The other
three messages concerned a terrorist threat advisory following the events of
September 11, 2001, an advisory to remain vigilant over the Fourth of July
2002 holiday, and an advisory concerning al-Qaeda’s interest in targeting
the nation’s fuel infrastructure.

       The FBI’s NLETS messages offer a method of providing immediate
general information to state and local law enforcement agencies.
Specifically, NLETS is used to inform the law enforcement community of
terrorist threats and the general factors leading to changes in the national
threat advisory level as well as naming and describing individuals sought by
the FBI. Because the FBI knows of a general threat but not a specific target
to cite in the messages, the advisories urge a heightened alert. Guidance
regarding an increase in the color-coded national threat level is general such
as the need to coordinate security efforts with other law enforcement
agencies and to be prepared to execute contingency procedures such as
relocating to alternative sites or dispersing the workforce. In the case of
BOLO messages, the FBI instructs law enforcement agencies to either detain
the individual or obtain further guidance from the FBI or the local JTTF.

Terrorist Watch List

      According to Unit Chief, the FBI’s Terrorist Watch and Warning Unit
posts the names of some 5,000 terrorists from the FBI’s Terrorist Watch List
on the NCIC database, which can be accessed by state and local law
enforcement personnel. The Watch List information is derived from the FBI’s

                                  - 62 -



                    REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


Violent Gang and Terrorist Organization File. If a local law enforcement
agency produces a “hit” from the NCIC check, the system provides guidance
how to handle the individual: detain, arrest, or notify the FBI. Of the 5,000
names on the FBI’s Watch List, about half are international terrorist
suspects. In April 2003 the GAO reported that federal agencies maintain
12 different watch lists.36 One of the watch lists cited was the FBI’s Violent
Gang and Terrorist Organization File. The GAO recommended that the DHS
lead an effort to consolidate and standardize the disparate watch lists. In
the meantime, we believe that the FBI’s effort to post terrorists’ names on
the NCIC, begun in March 2002, can help prevent local police from releasing
terrorist suspects.

Conclusions

       The FBI has taken a number of measures to more effectively share
intelligence and other information on the terrorist threat. Communications
within the FBI, and to and from the intelligence community in particular,
have improved through Intelligence Information Bulletins and formal
intelligence assessments. For top FBI management, the Director’s Briefing
provided highly-classified, specific intelligence to the extent such information
is available. We have not reviewed the Daily Reports that recently replaced
the Director’s Briefing, but the reports appear to serve a similar purpose.
Although Urgent Reports allow field offices to work around the time-
consuming and unwieldy EC process, the subject of the messages varies
from potential terrorist activity to much less urgent matters. Given the
continuous stream of information flowing to senior FBI leadership, we
believe that only the most serious and urgent matters should be brought to
the immediate attention of the Director and other senior managers.

      The most problematic aspect of the FBI’s efforts to improve
information sharing concerns state and local law enforcement. The FBI’s
weekly Intelligence Bulletins, Quarterly Terrorist Threat Assessments, and
periodic NLETS messages are only partially effective in providing actionable
information. Frequently the information being shared on terrorism could be
described as background; often the subject of the FBI’s communications is
not the high risk of radical Islamic fundamentalist terrorism but social
protests or the criminal activities of environmental or animal activists. Still,

       36
         The report is entitled “Information Technology: Terrorist Watch Lists Should Be
Consolidated to Promote Better Integration and Sharing” (GAO-03-322, April 15, 2003).



                                        - 63 -



                       REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


the FBI is limited as to what intelligence and information it can provide state
and local law enforcement agencies on terrorists and their activities, either
because specific threats and targets are not known to the FBI or because
lack of security clearances by state and local officials or other national
security concerns prevent the sharing of more detailed information. We
believe the FBI should continue to encourage state and local law
enforcement officials to apply for security clearances and provide cleared
officials with relevant terrorist threat information on a need-to-know basis
either in writing if the recipient has approved storage containers or through
periodic classified briefings.

Recommendations

      We recommend that the Director of the FBI:

      5. Issue guidance on Urgent Reports so that top FBI managers’
         attention focus on the most important matters of national security
         and public safety.

      6. Focus the content of Intelligence Bulletins and Quarterly Terrorist
         Threat Assessments to provide – to the extent possible – actionable
         information on the high risk of international terrorism and any
         domestic terrorist activities aimed at creating mass casualties or
         destroying critical infrastructure, rather than information on social
         protests and domestic radicals’ criminal activities.




                                   - 64 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


               STATEMENT ON MANAGEMENT CONTROLS

     In planning and performing our audit, we considered the FBI’s
management controls for the purpose of determining our auditing
procedures. This evaluation was not made for the purpose of providing
assurance on the FBI's management controls as a whole. We noted,
however, certain matters that we consider to be reportable conditions under
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of management controls
that, in our judgment, could adversely affect the FBI's ability to effectively
manage the program. As discussed in the Findings and Recommendations
sections of this report, we found that: 1) there were no written policies and
procedures to guide the flow and dissemination of information relating to the
FBI’s counterterrorism efforts, and 2) efforts to communicate with state and
local law enforcement agencies too often did not focus on the higher risk of
radical Islamic fundamentalist terrorism and the potential for mass-casualty
attacks.

      Because we are not expressing an opinion of the FBI's management
controls as a whole, this statement is intended solely for the information and
use of the FBI in managing the program.




                                  - 65 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       We have audited the FBI's intelligence and information-sharing efforts
related to counterterrorism. The audit generally covered the period
September 2001 through April 2003, and included a review of the FBI’s
identification of impediments to intelligence and information sharing, actions
taken to improve intelligence and information sharing, and dissemination
methods. The audit was conducted in accordance with Government Auditing
Standards.

      In connection with the audit and as required by the standards, we
reviewed procedures, activities, and records to obtain reasonable assurance
about the FBI's compliance with laws and regulations that, if not complied
with, we believe could have a material effect on the program operations.
Compliance with laws and regulations applicable to the program is the
responsibility of the program's management.

      Our audit included examining, on a limited test basis, evidence about
laws and regulations. The specific laws for which we conducted tests are
contained in:

         • Title 28, United States Code, Section 533;

         • National Security Directive 207;

         • Presidential Decision Directive 39; and

         • Presidential Decision Directive 62.

      The FBI complied with the laws and regulations cited above. With
respect to those transactions not tested, nothing came to our attention that
caused us to believe that the FBI was not in compliance with the referenced
laws.




                                  - 66 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED
                                                                  Appendix 1
               OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The primary objectives of the audit were to determine the extent to
which the FBI: 1) identified impediments to the sharing of counterterrorism-
related intelligence and other information, 2) has improved its ability to
share intelligence and other information both within the FBI and to the
intelligence community and state and local law enforcement agencies, and 3)
is providing useful threat and intelligence information to other law
enforcement agencies.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objectives. Generally our audit focused on the FBI’s efforts to improve
the dissemination of intelligence and other information from September
2001 through September 2003.

      In conducting this audit, OIG staff interviewed or received briefings
from the Executive Assistant Director for Intelligence, the current and former
Assistant Director of the FBI’s Office of Intelligence, and senior managers in
the Counterterrorism Division, including the Assistant Director at the time,
the three Deputy Assistant Directors, eight Section Chiefs, and four Unit
Chiefs. OIG staff interviewed or obtained briefings from FBI managers
responsible for information technology improvements, the monitoring of re-
engineering projects, and coordination with state and local law enforcement
agencies. In addition, we analyzed samples of formal FBI intelligence and
other information products disseminated to the intelligence community and
to state and local law enforcement agencies. We also obtained and reviewed
FBI documents on the flow of intelligence, staffing of intelligence analysts,
re-engineering projects, state and local law enforcement coordination, IT
improvements, and other efforts designed to improve information sharing.
OIG staff also interviewed representatives of the Central Intelligence Agency
who were detailed to the FBI as managers in the Counterterrorism Division.
In addition, we reviewed congressional testimony and the reports of
counterterrorism commissions dealing in part with intelligence and
information sharing.




                                  - 67 -



                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       To avoid duplicating other ongoing audit work, we restricted our audit
scope to information and personnel available at FBI headquarters.
Consequently, we did not perform audit work at, or interview officials of,
intelligence agencies, state and local law enforcement agencies, JTTFs, FBI
field offices, or others. However, we did interview selected intelligence
agency officials assigned to FBI headquarters.




                                  - 68 -



                    REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED
                                                                Appendix 2


                       ABBREVIATIONS

ACS                     Automated Case File System

BOLO                    Be On The Lookout For

CIA                     Central Intelligence Agency

CONUS                   Continental United States

[CLASSIFIED INFORMATION REDACTED]

CTC                     CIA Counterterrorist Center

CTD                     Counterterrorism Division

DCI                     Director of Central Intelligence

DCID                    Director of Central Intelligence Directive

DHS                     Department of Homeland Security

DOD                     Department of Defense

DOJ                     Department of Justice

DTOS                    Domestic Terrorism Operations Section

EC                      Electronic Communication

FISA                    Foreign Intelligence Surveillance Act

GAO                     General Accounting Office

GS                      General Schedule

IIR                     Intelligence Information Reports

INS                     Immigration and Naturalization Service



                            - 69 -



                REDACTED AND UNCLASSIFIED
           REDACTED AND UNCLASSIFIED


IT                Information Technology

ITOS              International Terrorism Operations Section

JTTF              Joint Terrorism Task Force

JWICS             Joint Worldwide Intelligence Communications
                  System

LAN               Local Area Network

LEO               Law Enforcement Online

NCIC              National Crime Information Center

NJTTF             National Joint Terrorism Task Force

NLETS             National Law Enforcement Telecommunications
                  System

NSA               National Security Agency

NTCS              National Threat Center Section

OCONUS            Outside Continental United States

OIG               Office of the Inspector General

OLEC              Office of Law Enforcement Coordination

OI                Office of Intelligence

ORCON             Originator Controlled

PDD               Presidential Decision Directive

PENTTBOM          Pentagon/Trade Towers Bombing
                  Investigations

SCI               Sensitive Compartmented Information



                      - 70 -



           REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED


SCOPE              Secure Counterterrorism Operational Prototype
                   Environment

SIOC               Strategic Information and Operations Center

[CLASSIFIED INFORMATION REDACTED]

SVTS               Secure Video Teleconferencing System

TFOS               Terrorist Financing Operations Section

TRRS               Terrorism Reports and Requirements Section

TS/SCI LAN         Top Secret/Sensitive Compartmented Information
                   Local Area Network

TTIC               Terrorist Threat Integration Center

WMD                Weapons of Mass Destruction




                             - 71 -



                REDACTED AND UNCLASSIFIED
                                                          REDACTED AND UNCLASSIFIED



                                                                                                                                                                 Appendix 3
                                               Counterterrorism Division Status of Personnel as of 3/19/03

                                                Supv.                       Supervisory
                                                Mgmt. &      Intelligence   Intelligence                Presidential                                      Mgmt. &
                     Intelligence   Budget      Budget       Operations     Operations     Evidence     Support      Security     Management Financial    Program
Types of Positions   Assistants     Analysts    Analyst      Specialists    Specialists    Technician   Assistant    Specialist   Assistant  Analyst      Analyst      Total
Goal
On Board
Need to Hire
In Background                                                     CLASSIFIED INFORMATION REDACTED


                     Supervisory                                            Editor,                     Supervisory
                     Management &                            Visual         Designer,      Intelligence Intelligence              Technical
                     Program      Special       IT           Information    Production     Research     Research                  Information   Supply     Computer
Types of Positions   Analyst      Assistant     Specialist   Specialist     Specialist     Specialist   Specialist   Secretary    Specialist    Technician Scientist   Total
Goal
On Board
Need to Hire
In Background                                                     CLASSIFIED INFORMATION REDACTED


                                                Assistant
                     Program        Section     Section
Types of Positions   Analysts       Chief       Chief                                                                                                                  Total
Goal
On Board
Need to Hire
In Background                                                     CLASSIFIED INFORMATION REDACTED

Source: CTD Administrative and Resources Unit Chief



                                                      REDACTED AND UNCLASSIFIED



                                                                                  - 72 -
                            REDACTED AND UNCLASSIFIED


                                       CTD Program Resources
CT Field Program                                 Agent Positions   Support Positions   Total Positions
Fiscal Year 2002 Actuals
                                                  CLASSIFIED INFORMATION REDACTED
Fiscal Year 2003 Funded
   FY 2003 Base
   FY 2003 Program Increase
       Reports Officers
Subtotal: FY 2003 Program Increase
Total: FY 2003 Funded
Fiscal Year 2004 Request to Congress
   FY 2004 Base
   FY 2004 Program Increase
       Agents
       Investigative Support
       Technical Support
       Clerical Support
       Intelligence Research Specialists
Subtotal: FY 2004 Program Increase
Total: FY 2004 Request to Congress
CT Headquarters Program                          Agent Positions   Support Positions   Total Positions
Fiscal Year 2002 Actuals
                                                  CLASSIFIED INFORMATION REDACTED
Fiscal Year 2003 Funded
   FY 2003 Base
   FY 2003 Program Increase
      Agents
      Reports Officers
Subtotal: FY 2003 Program Increase
Total: FY 2003 Funded
Fiscal Year 2004 Request to Congress
   FY 2004 Base
   FY 2004 Request to Congress
       Intelligence Operations Specialists
       Reports Officers
       Intelligence Analysis Assistant PM
       Special Assistants
       Computer Scientists
       Attorneys
       Information Technology Advisors
       Management & Program Analysts
       Editors
       Visual Information Specialists
       Technical Information Specialists
       Personnel Management Specialists
       Training Specialists
       Financial Analysts
       Program Analysts
       Secretaries
       Administrative Assistants
       Evidence Technicians
       Intelligence Assistants
       Management Assistants
       Supply Technicians
       IOS (Internet Tips)
Subtotal: FY 2004 Program Increase
Total: FY 2004 Request to Congress

Source: CTD Administration and Resources Unit Chief




                         REDACTED AND UNCLASSIFIED


                                             - 73 -
                  REDACTED AND UNCLASSIFIED
                                                              Appendix 4




FOR IMMEDIATE RELEASE                              AG
WEDNESDAY , OCTOBER 9, 2002            (202) 616-2777
WWW.USDOJ.GOV                      TDD (202) 514-1888
       ATTORNEY GENERAL JOHN ASHCROFT UNVEILS
  GATEWAY INFORMATION-SHARING PILOT PROJECT IN ST.
                   LOUIS, MISSOURI

WASHINGTON, D.C. - Attorney General John Ashcroft today unveiled
the Gateway Information-Sharing Project (ISI), a pilot program that
integrates investigative data from federal, state and local law
enforcement agencies into one database that will ultimately be
accessible to all participating agencies via secure Internet. This
program is the result of cooperation between the Illinois State Police,
St. Louis Metropolitan Police Department, St. Louis County Police
Department, Missouri State Highway Patrol, St. Clair County Sheriff's
Office, Collinsville, Illinois Police Department, Southern Illinois Police
Chiefs Association, St. Louis Area Police Chiefs Association, Federal
Bureau of Investigation, and the United States Attorneys' Offices of the
Southern District of Illinois and Eastern District of Missouri. St. Louis
Joint Terrorism Task Force.

"Today, at a time when our nation is fully engaged in a war on
terrorism, information has never been more important," Attorney
General Ashcroft said. "It is the key to prevention - not just of
terrorism, but also of crime. This Information-Sharing Initiative will be
a vital tool to the federal, state, and local law enforcement officers
who dedicate their lives to keeping our communities and our nation
safe."

The St. Louis Intelligence Center began in 1999 when the U.S.
Attorneys for Eastern Missouri and Southern Illinois, together with
federal, state and local law enforcement, created a joint intelligence
center to explore the possibility of a shared data warehouse, designed
to combat drug trafficking and violent crime. Over the past year, these
projects have merged into the Gateway ISI. In April, the FBI initiated
                 REDACTED AND UNCLASSIFIED


                                - 74 -
                   REDACTED AND UNCLASSIFIED


the first phase of the pilot project in St. Louis, and launched pilot
projects in San Diego, Seattle/Portland, Norfolk, and Baltimore.

The Gateway ISI marks the first time that the FBI has entered records
in a data warehouse containing investigative data from local and state
law enforcement agencies. The first phase included records from the
St. Louis FBI field office, the St. Louis Metropolitan Police Department,
and the Illinois State Police. The project is managed by an Executive
Board consisting of federal, state and local law enforcement executives
from participating agencies in Southern Illinois and Eastern Missouri
districts, along with United States Attorneys Miriam Miquelon and
Raymond Gruender.

"The Gateway ISI makes ‘real time' law enforcement a reality," said
Miriam Miquelon, United States Attorney for the Southern District of
Illinois. "By allowing law enforcement agencies to share information,
this technology enables officers to make swift threat assessments and
expedite apprehension of criminals."

The Gateway ISI merges investigative files and records from all levels
of law enforcement into a single, searchable data warehouse. It
provides investigators and analysts the ability to search the actual text
of investigative records for names, addresses, phone numbers, scars,
marks, tattoos, weapons, vehicles, and phrases. It also graphically
depicts the relationships between these factors. Each agency that
enters data into the warehouse will be able to access it through four
levels of security access.

"Information that was previously fragmented and would take analysts
months to collate will be connected within seconds," said Ashcroft.
"This revolutionary system will enable investigators to identify
intelligence gaps, and to see tangible links between seemingly
unrelated investigations."

Though still a pilot project, the Executive Board expects the St. Louis
Gateway ISI to be fully operational within 60 days. If successful, the
project could serve as a model for a nationwide information- sharing
initiative.

"We are very proud that the Gateway Information-Sharing Initiative
may become the model for a national program of information-sharing
between federal, state and local law enforcement," said Ray Gruender,
the United States Attorney for the Eastern District of Missouri. "We
                 REDACTED AND UNCLASSIFIED


                                 - 75 -
                  REDACTED AND UNCLASSIFIED


hope this project will continue to develop and become a powerful tool
not only in our efforts to prevent and disrupt terrorism but also in our
efforts to fight drug crime, violent crime and fraud throughout the
nation."

02-589




                 REDACTED AND UNCLASSIFIED


                                - 76 -
         REDACTED AND UNCLASSIFIED
                                          Appendix 5
LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED




        REDACTED AND UNCLASSIFIED


                   - 77 -
         REDACTED AND UNCLASSIFIED



LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED




        REDACTED AND UNCLASSIFIED


                   - 78 -
                    REDACTED AND UNCLASSIFIED




       LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED




Source: CTD Executive Staff


                  REDACTED AND UNCLASSIFIED


                              - 79 -
         REDACTED AND UNCLASSIFIED
                                          Appendix 6

LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED




        REDACTED AND UNCLASSIFIED


                   - 80 -
                    REDACTED AND UNCLASSIFIED



       LAW ENFORCEMENT SENSITIVE INFORMATION REDACTED




Source: CTD Executive Staff

                  REDACTED AND UNCLASSIFIED


                              - 81 -
 REDACTED AND UNCLASSIFIED
                             Appendix 7




REDACTED AND UNCLASSIFIED


          - 82 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 83 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 84 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 85 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 86 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 87 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 88 -
 REDACTED AND UNCLASSIFIED




REDACTED AND UNCLASSIFIED


          - 89 -
                   REDACTED AND UNCLASSIFIED



                                                            Appendix 8

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
   SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

       We provided the draft audit report to the FBI for review and
comment. The response from the FBI is incorporated as Appendix 7 of
this final report. Our analysis of the FBI’s response to specific
recommendations is provided below. In addition to responding to the
recommendations, the FBI provided additional comments and listed
improvements it says it has made since the completion of the audit.

       At the FBI’s request we analyzed and incorporated into the audit
report significant developments in the FBI’s intelligence sharing
program that occurred subsequent to the completion of a draft of this
report. After our audit fieldwork was completed, we met with FBI
intelligence officials at their request in September 2003 and provided
them an opportunity to raise any additional changes that the FBI was
making in its intelligence sharing capabilities. We subsequently
incorporated the changes they identified in the final report.

       The FBI’s response states that the audit process by its nature is
slow and implies that this report’s findings and recommendations no
longer reflect “realities”. In addition, the FBI cited in its response 17
additional items which it said should be included in the report to make
it more complete. However, none of these were cited to us by the FBI
in the comments made in September 2003 on an earlier draft of this
report. Moreover, while we agree that the FBI is making positive
changes in the intelligence sharing process, we disagree with both the
general comment about the audit process and the implication about
the findings and recommendations of this report. We recognized that
the FBI has made and will continue to make changes in its
information-sharing process; however, the fact that the FBI’s
intelligence program is evolving is made clear in the audit report and
does not detract from the accuracy and relevance of our findings.

       With regard to the 17 additional items cited by the FBI, many
are already discussed in the report, others are still in the planning or
development stages, and others are not recent initiatives. For
example, the FBI cites the establishment of Field Intelligence Groups
in all 56 field offices. However, the report discusses the FBI’s
                 REDACTED AND UNCLASSIFIED


                                - 90 -
                  REDACTED AND UNCLASSIFIED



intelligence capabilities and staffing on a number of pages, including
18, 29-31, and 46. Completing the establishment of intelligence
groups may be a recent development.

      The FBI cites the establishment of a presence on “Intellink” and
“SIPERNET”. Assuming these references are meant to be to “Intelink”
and “SIPRNET,” they do not appear to be recent developments. On
June 10, 1998, Michael A. Vatis, Deputy Assistant Director and Chief of
the FBI’s National Infrastructure Protection Center, testified before the
Senate Judiciary Subcommittee on Technology, Terrorism, and
Government Information that:

      We are currently in the process of designing an information
      architecture that will serve our mission needs. This will
      consist of analytical tools; computer resources; and
      connectivity to other federal government agencies, State
      and local governments, and private sector incident
      response teams and companies. In the meantime, we are
      relying on existing communications capabilities including:
      INTELink for access to intelligence information; SIPRNet
      and ADNet for communication with the Department of
      Defense; the National Law Enforcement
      Telecommunications System (NLETS) and Law
      Enforcement On-Line (LEO) to communicate with State
      and local law enforcement; the Awareness of National
      Security Issues and Response (ANSIR) program for
      communicating with industry; and FBInet for
      communication within the FBI.

Further, we mention SIPRNET on pages 38 and 40 of the report
and Intelink on page 54.

       The FBI cites completion of a web page on Law
Enforcement Online (LEO) as an important step in sharing
sensitive information. However, the LEO system itself is not a
recent initiative. The FBI’s August 2000 Law Enforcement
Bulletin stated that:

      Every day across the country, law enforcement, criminal justice, and
      public safety professionals are “signing on” to Law Enforcement Online
      (LEO), a secure Intranet communication system built and maintained

                 REDACTED AND UNCLASSIFIED


                                - 91 -
                  REDACTED AND UNCLASSIFIED



      by the FBI, to share sensitive information. They rely on LEO as their
      primary tool to communicate or obtain mission critical information, to
      provide or participate in online educational programs, and to
      participate in professional special interest or topically focused dialog.

We mention LEO on pages 44 and 59 of the report. The FBI also cites the
connection of LEO to the Regional Information Sharing System Network
(RISSNET). RISSNET is mentioned on page 59 of the report.

      The FBI cites that training has been provided for analysts since
September 11, 2001. The report on pages v, 19, 31, 37, 49 and 50
discusses the FBI’s ongoing efforts to develop an analyst training program.

      The FBI cites the multi-agency Terrorist Screening Center,
administered by the FBI, which is described as being operational.
Although the establishment of the Terrorist Screening Center
was announced in September 2003 and began operations on
December 1, 2003, the FBI has stated that the initial capabilities
of the Center will be limited. We have added a notation on the
Terrorist Screening Center to the report.

      The FBI cites the Global Intelligence Working Group as its
advisory board on intelligence sharing. However, the internet
homepage for the this group describes it as an initiative not of
the FBI but of the Office of Justice Programs:

      The IACP [International Association of Chiefs of Police]
      Criminal Intelligence Sharing Report contained a proposal
      to create a National Criminal Intelligence Sharing Plan
      (“Plan”). The most central and enduring element of the
      Plan advocated by Summit participants was the
      recommendation for the creation of a Criminal Intelligence
      Coordinating Council comprised of local, state, tribal, and
      federal law enforcement executives. The Council’s
      mandate would be to establish, promote, and ensure
      effective intelligence sharing and to address and solve, in
      an ongoing fashion, the problems that inhibit it. In fall
      2002, in response to this proposal, the U.S. Department of
      Justice, Office of Justice Programs (OJP), Bureau of Justice
      Assistance (BJA), authorized the formation of the Global
      Intelligence Working Group (GIWG), one of several

                 REDACTED AND UNCLASSIFIED


                                - 92 -
                  REDACTED AND UNCLASSIFIED



     issues-focused working groups of the Global Advisory
     Committee (GAC). [Emphasis added.]

      In sum, many of the FBI’s stated improvement efforts are either
discussed in the report or have been underway for years and have not
yet come to fruition. As stated above, we anticipate that the FBI will
continue to make progress in these areas.

Recommendation Number:

  1. Resolved. This recommendation is resolved based on the FBI’s
     plan to establish written policy and procedures for information
     sharing using the Concepts of Operations as a framework. This
     recommendation can be closed when we receive and review the
     policy and procedures for information sharing, including what
     types of information should be shared with what parties under
     what circumstances.

  2. Resolved. This recommendation is resolved based on the FBI’s
     statement that it has developed an information-sharing process
     map to accompany the FBI’s enterprise-wide architecture,
     currently under development. This recommendation can be
     closed when we receive and review a copy of the FBI-wide
     enterprise architecture and process map for information sharing
     that clearly defines the current and end states for the
     information-sharing process so that the numerous information-
     sharing initiatives can be coordinated and properly monitored
     and managed.

  3. Closed. This recommendation is closed based on the FBI’s
     statement that it has given the recommendation considerable
     thought but concludes that transferring some of the
     investigations currently handled as domestic terrorism would
     dilute the intelligence base directed to both domestic and
     international terrorism matters. In its response, the FBI states
     that international and domestic terrorist groups often use similar
     methods and that the Counterterrorism Division is best suited to
     counter the criminal activities of domestic groups that fall under
     the definition of domestic terrorism. The FBI response also
     details the operations of the Joint Terrorism Task Forces and
     states its concerns that the efficiencies offered by the task
     forces would be diminished if the Criminal Division were to
                 REDACTED AND UNCLASSIFIED


                               - 93 -
               REDACTED AND UNCLASSIFIED



   assume responsibility for cases classified as domestic terrorism.
   Although we are closing this recommendation, we continue to
   believe that the FBI should continue to assess whether there
   may be substantive advantages to transferring responsibility for
   the investigation of certain crimes committed by domestic
   groups or individuals to the Criminal Division thereby allowing
   the Counterterrorism Division and the Joint Terrorism Task
   Forces to concentrate on the greater threat to national security
   of international terrorism and the use of weapons of mass
   destruction. We believe that the FBI’s priority mission to
   prevent high-consequence terrorist acts would be enhanced if
   the Counterterrorism Division did not have to spend time and
   resources on lower-threat activities by social protestors or on
   crimes committed by environmental, animal rights, and other
   domestic radical groups or individuals (unless explosives or
   weapons of mass destruction are involved).

4. Resolved. This recommendation is resolved based on the FBI’s
   development of implementation plans for each relevant
   Intelligence Concept of Operations Plan, including a time
   schedule and the designation of the responsible official, and the
   FBI’s plan to add a budget section to each Concept of
   Operations Plan. However, the FBI’s response does not include
   a time schedule for completing the planned action, and such a
   schedule should be included in the FBI’s next corrective action
   response. This recommendation can be closed when we receive
   and review documentation of the implementation plans that
   include budgets, time schedules, and designation of the
   responsible official.

5. Resolved. This recommendation is resolved based on the FBI’s
   action to complete an analysis of problems related to the Urgent
   Reports and to identify and recommend changes to improve the
   process. The FBI’s response notes that the analysis and
   recommendations are currently under review, but does not
   include a time schedule for completing the action. Such a
   schedule should be included in the FBI’s next corrective action
   response. This recommendation can be closed when we receive
   and review documentation of the changes made in the Urgent
   Reports process to focus top management’s attention on the
   most important matters of national security and public safety.

             REDACTED AND UNCLASSIFIED


                            - 94 -
               REDACTED AND UNCLASSIFIED




6. Closed. This recommendation is closed. The FBI stated that it
   thoroughly reviewed the recommendation and concluded that if
   adopted the recommendation would impede the sharing of
   information with its state and local partners. In its response,
   the FBI states that Intelligence Bulletins reach a broad spectrum
   of users and that actionable intelligence should be conveyed
   through Joint Terrorism Task Forces. We agree that actionable
   intelligence can and should be shared with state and local law
   enforcement agencies through Joint Terrorism Task Forces, but
   the FBI has also provided actionable information and terrorism
   awareness topics through its Intelligence Bulletins, and we
   believe it should continue to do so. Further, we believe that a
   more general or routine law enforcement advisory is the better
   means of disseminating general public safety and crime-related
   information so that those involved in preventing or responding
   to acts of terrorism can concentrate their attention and efforts
   on high-consequence matters. However, in light of the FBI’s
   substantive disagreement with this recommendation, and
   because the FBI appears to have carefully considered our
   recommendation, we are closing this recommendation. But we
   continue to recommend that the FBI consider focusing, to the
   extent possible, the content of Intelligence Bulletins and
   Quarterly Terrorist Threat Assessments on actionable
   international terrorism and any domestic terrorist activities
   aimed at creating mass casualties or destroying critical
   infrastructure.




             REDACTED AND UNCLASSIFIED


                            - 95 -
